Office of Material Loss Reviews
Report No. MLR-11-012


Material Loss Review of ShoreBank,
Chicago, Illinois




                                  February 2011
                                     Executive Summary

                                     Material Loss Review of ShoreBank,
                                     Chicago, Illinois
                                                                                     Report No. MLR-11-012
                                                                                             February 2011

Why We Did The Audit
On August 20, 2010, the Illinois Department of Financial and Professional Regulation (IDFPR) closed
ShoreBank, Chicago, Illinois and named the FDIC as receiver. On August 27, 2010, the FDIC notified
the Office of Inspector General (OIG) that ShoreBank’s total assets at closing were $2.16 billion and the
estimated loss to the Deposit Insurance Fund (DIF) was $329 million. The FDIC revised the estimated
loss amount to $452 million as of January 31, 2011 based on updated asset recovery assumptions and
liquidation information. As required by section 38(k) of the Federal Deposit Insurance Act, and as
amended by the Dodd-Frank Wall Street Reform and Consumer Protection Act, the OIG conducted a
material loss review of the failure of ShoreBank.

On August 5, 2010, prior to ShoreBank’s failure, the Ranking Member of the House Financial Services
Committee and the Ranking Member of the Subcommittee on Oversight and Investigations requested that
we review private-sector efforts to recapitalize ShoreBank and the FDIC’s consideration of ShoreBank’s
application for funds under the Department of the Treasury’s (Treasury) Community Development
Capital Initiative (CDCI) program. The Ranking Members requested that we determine whether the
Administration or Members of the Congress exerted political influence over the FDIC associated with
efforts to recapitalize ShoreBank.

The audit objectives were to (1) determine the causes of ShoreBank’s failure and the resulting material
loss to the DIF and (2) evaluate the FDIC’s supervision of ShoreBank, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38. In addition, to address
the Ranking Members’ concerns, we determined (3) the timeline of events pertaining to the FDIC’s
supervision and CDCI consideration for ShoreBank; (4) the extent and nature of FDIC involvement in the
ShoreBank investor recapitalization effort; (5) whether the FDIC followed its standard process in
reviewing ShoreBank’s CDCI application and whether ShoreBank met CDCI eligibility requirements;
(6) whether the resolution followed selected FDIC policies and regulations related to marketing the
bank, assessing purchaser eligibility, and making a least cost decision; and (7) whether there was any
indication of political or inappropriate influence imposed on the FDIC in connection with the supervision,
investor recapitalization effort, CDCI consideration, or resolution of ShoreBank.

This report addresses the first two objectives; that is, the report presents our analysis of ShoreBank’s
failure and the FDIC’s supervision of the institution, as required by section 38 of the FDI Act. We will
issue a separate report that addresses the remaining objectives involving ShoreBank recapitalization
efforts and the Corporation’s marketing and resolution of ShoreBank.

We note that, in conjunction with other organizational changes made to enhance the FDIC’s ability to
carry out its new and enhanced responsibilities under the Financial Reform Act, the Division of
Supervision and Consumer Protection (DSC) became the Division of Risk Management Supervision
effective February 13, 2011. As a result of the timing of our review and draft report issuance, we refer to
DSC throughout the executive summary and the body of this report.




                                To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of ShoreBank,
                                     Chicago, Illinois
                                                                                    Report No. MLR-11-012
                                                                                            February 2011


Background
ShoreBank was a state-chartered, non-member bank headquartered in Chicago, Illinois. The institution
was established in 1939 as a national bank. In 1973, the Illinois Neighborhood Development Corporation
(which later became known as the ShoreBank Corporation (SBC)), acquired control of the bank with the
goal of profitably investing in community development activities. A key focus for the new owners was
rebuilding the local community that had for a decade been increasingly torn by crime and poverty. The
bank converted to a state charter in 1978 and subsequently expanded its operations into Michigan and
Ohio.

ShoreBank’s lending strategy focused on providing financing for affordable housing and economic
development activities in underserved and economically-disadvantaged areas. The institution’s customers
included small businesses, not-for-profit organizations, churches, and individuals in low- to moderate-
income areas, including Chicago’s South Side. ShoreBank provided credit for community development
efforts to minority-owned businesses and individuals, conservation efforts to businesses developing
efficient energy use and alternative energy sources, and international efforts to establish successful loan
programs for individuals and small businesses around the world.

ShoreBank was certified by the Treasury’s Community Development Financial Institution (CDFI) Fund
and was the largest CDFI in the United States. Congress established the CDFI Fund in 1994 to expand
the capacity of financial institutions to provide credit, capital, and financial services to underserved
populations and communities in the United States. A certified CDFI is a specialized financial institution
that works in market niches that are underserved by traditional financial institutions. Typically, CDFIs
provide a unique range of financial products and services in economically-distressed target markets, such
as mortgage financing for low-income and first-time homebuyers and not-for-profit developers; flexible
underwriting and risk capital for community facilities; and technical assistance, commercial loans, and
investments to small start-up or expanding businesses in low-income areas.

ShoreBank’s primary lending area was particularly impacted by the recent economic decline. The U.S.
Census Bureau’s 2008 American Community Survey reported that the unemployment rate within a
four-community area within the south side of Chicago was 23.2 percent, significantly higher than the
national average.


Audit Results

Causes of Failure and Material Loss

ShoreBank failed due to insolvency brought on by the Board and management not implementing adequate
risk management practices. ShoreBank provided banking opportunities to underserved and low-income
areas but did not sufficiently mitigate risks inherent in its business strategy. In particular, management
(1) did not effectively manage the risks associated with its concentrations in Commercial Real Estate
(CRE) and Acquisition, Development, and Construction (ADC) loans; (2) employed poor underwriting
and credit administration practices; and (3) supported loan growth and ongoing operations with non-core
funding sources. Further, ShoreBank management was not responsive to repeated examiner concerns
pertaining to these areas, particularly from 2007 until the bank failed.



                                To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of ShoreBank,
                                     Chicago, Illinois
                                                                                     Report No. MLR-11-012
                                                                                             February 2011



ShoreBank’s asset concentrations and weak risk management practices made the institution vulnerable to
a sustained economic downturn in the Chicago real estate market. Deterioration in the bank’s loan
portfolio began in 2007 and accelerated throughout 2008 and 2009. Ultimately, the losses, provisions,
and delinquency associated with the bank’s loan portfolio depleted the institution’s earnings and capital,
and impaired its liquidity position. IDFPR closed ShoreBank because the institution did not have
sufficient capital to continue normal operations. The FDIC also incurred penalties associated with the
early termination of secured borrowings held by ShoreBank when it failed that increased DIF losses by
about $100 million.

The FDIC’s Supervision of ShoreBank

The FDIC, in conjunction with the IDFPR, provided ongoing supervisory oversight of ShoreBank through
risk management examinations, a visitation, and off-site monitoring. Through its supervisory efforts, the
FDIC identified key risks and deficiencies in ShoreBank’s risk management practices and operations and
brought these concerns to the attention of the institution’s Board and management through discussions,
correspondence, and examination reports. Key recurring risks included weak risk management practices
pertaining to asset concentrations, loan underwriting and credit administration, and a historically high
reliance on non-core funding. However, the FDIC considered the key risks to be adequately mitigated
prior to 2007.

ShoreBank began experiencing increasingly higher levels of loan delinquencies and losses in 2007, due,
in part, to the declining economy. The FDIC and IDFPR downgraded the Asset Quality rating because of
adversely classified items and rising delinquencies. Following the 2008 examination, the FDIC and
IDFPR further downgraded all of the component ratings and the composite rating and imposed a formal
enforcement action. In retrospect, earlier and greater emphasis on the bank’s risk profile—including its
vulnerability to an economic downturn, the repeat nature of certain key risk management weaknesses, and
dependence on non-core funding sources—may have been called for in determining the bank’s
Management and Liquidity ratings and deciding whether an informal action was warranted. Taking a
more aggressive supervisory approach earlier could have influenced ShoreBank’s Board and management
to constrain excessive risk and limit expansion into higher-risk areas, and imposed a more structured
means to ensure the Board and management affirmatively responded to examiner concerns at a critical
time.

The FDIC has taken a number of steps to enhance its supervision program based on the lessons learned
from financial institution failures during the financial crisis. Of note, in March 2010, the FDIC completed
a training initiative for its entire supervisory workforce that emphasizes the need to assess a bank’s risk
profile using forward-looking supervision. The training addressed the need for examiners to consider
management practices as well as current financial performance or trends in assigning ratings, as allowable
under existing examination guidance. The FDIC has also issued supervisory guidance addressing risks
associated with CRE and ADC lending and funds management practices. The early use of informal
enforcement actions to pursue correction of weak risk management practices is consistent with
forward-looking supervision and has been addressed in internal guidance issued to examiners.

The FDIC generally implemented applicable PCA provisions of section 38. The FDIC did not provide
written notification to ShoreBank of the adequacy of its capital restoration plan, as required. However, in
our view, the lack of written notification was inconsequential to the supervision or failure of the bank.


                                To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of ShoreBank,
                                     Chicago, Illinois
                                                                                     Report No. MLR-11-012
                                                                                             February 2011




Management Response
After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On February 25, 2011, the Director,
Division of Risk Management Supervision, provided a written response to the draft report. In the
response, the Director reiterated the causes of ShoreBank’s failure and the supervisory activities described
in our report. The response also noted that the FDIC issued a Financial Institution Letter (FIL) in 2008,
entitled Managing Commercial Real Estate Concentrations in a Challenging Environment, that
reemphasized the importance of robust credit risk-management practices in institutions with concentrated
CRE exposures.




                                To view the full report, go to www.fdicig.gov
                                  Contents
                                                                        Page
Background                                                                2
  Community Development Financial Institutions                            4
  ShoreBank’s Economically Challenged Markets                             4

Causes of Failure and Material Loss                                       6
  Board and Management Oversight                                          7
  Composition, Growth, and Performance of the Loan Portfolio              8
  Loan Underwriting, Credit Administration, and Risk Analysis and        12
   Recognition Practices
  Non-Core Funding Dependence                                            14

The FDIC’s Supervision of ShoreBank                                      19
  Supervisory History                                                    20
  Supervisory Response to ShoreBank’s Board and Management               24
  Oversight
  Supervisory Response to ShoreBank’s Risk Management of the             26
   Loan Portfolio
  Supervisory Response to ShoreBank’s Non-Core Funding Dependence        29
  Implementation of PCA                                                  31

Corporation Comments                                                     34

Appendices
  1. Objectives, Scope, and Methodology                                  35
  2. Glossary of Terms                                                   39
  3. Acronyms                                                            46
  4. Corporation Comments                                                48

Tables
  1. Financial Condition of ShoreBank                                     3
  2. Selected Financial Measures of CDFI Banks and ShoreBank              4
  3. Areas of Concern Identified Regarding ShoreBank’s Loan Portfolio    12
  4. ShoreBank’s Funding Sources                                         14
  5. ShoreBank’s Examination History                                     20
  6. ShoreBank’s Offsite Review History                                  21
  7. ShoreBank’s Capital Levels Relative to PCA Thresholds for Well      32
     Capitalized Institutions

Figures
  1. National and Local Unemployment Rates                                5
  2. National and State Mortgage Delinquencies                            6
  3. Composition and Growth of ShoreBank’s Loan Portfolio                 9
  4. ShoreBank’s CRE Loan Concentrations Compared to Peer Group          10
  5. ShoreBank’s Loan and Lease Losses (in 000s)                         11
  6. ShoreBank’s Net Non-Core Funding Dependence Compared to Peer        16
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           February 25, 2011

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Risk Management Supervision

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of ShoreBank, Chicago, Illinois
                                                (Report No. MLR-11-012)

As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended
by the Dodd-Frank Wall Street Reform and Consumer Protection Act (the Financial
Reform Act), the Office of Inspector General (OIG) conducted a material loss review
(MLR) of the failure of ShoreBank, Chicago, Illinois. The Illinois Department of
Financial and Professional Regulation (IDFPR) closed the institution on August 20, 2010,
and named the FDIC as receiver. On August 27, 2010, the FDIC notified the OIG that
ShoreBank’s total assets at closing were $2.2 billion and the estimated loss to the Deposit
Insurance Fund (DIF) was $329 million. The FDIC revised the estimated loss amount to
$452 million as of January 31, 2011 based on updated asset recovery assumptions and
liquidation information. The estimated loss exceeds the $200 million MLR threshold for
losses occurring between January 1, 2010 and December 31, 2011, as established by the
Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

On August 5, 2010, prior to ShoreBank’s failure, the Ranking Member of the House
Financial Services Committee and the Ranking Member of the Subcommittee on
Oversight and Investigations requested that we review private-sector efforts to
recapitalize ShoreBank and the FDIC’s consideration of ShoreBank’s application for
funds under the Department of the Treasury’s (Treasury) Community Development
Capital Initiative (CDCI) program. The Ranking Members requested that we determine
whether the Administration or Members of the Congress exerted political influence over
the FDIC associated with efforts to recapitalize ShoreBank.

The objectives of this audit were to (1) determine the causes of ShoreBank’s failure and
the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of
ShoreBank, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act. In addition, to address the Ranking Members’ concerns, we determined
(3) the timeline of events pertaining to the FDIC’s supervision and CDCI consideration
for ShoreBank; (4) the extent and nature of FDIC involvement in the ShoreBank investor
recapitalization effort; (5) whether the FDIC followed its standard process in reviewing
ShoreBank’s CDCI application and whether ShoreBank met CDCI eligibility
requirements; (6) whether the resolution followed selected FDIC policies and
regulations related to marketing the bank, assessing purchaser eligibility, and making
a least cost decision; and (7) whether there was any indication of political or
inappropriate influence imposed on the FDIC in connection with the supervision, investor
recapitalization effort, CDCI consideration, or resolution of ShoreBank.

This report addresses the first two objectives, that is, our analysis of ShoreBank’s failure
and the FDIC’s supervision of the institution, as required by section 38 of the FDI Act.
We will issue a separate report addressing the remaining objectives involving ShoreBank
recapitalization efforts and the FDIC’s marketing and resolution of ShoreBank.

This report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of institution failures are identified in our material loss
reviews, we will communicate those to FDIC management for its consideration. As
resources allow, we may also conduct more comprehensive reviews of specific aspects of
the FDIC’s supervision program and make recommendations as warranted.1 Appendix 1
contains details on our objectives, scope, and methodology. We also include several
other appendices to this report. Appendix 2 contains a glossary of key terms, including
material loss, the FDIC’s supervision program, and the Uniform Financial Institutions
Rating System, known as the CAMELS ratings. Appendix 3 contains a list of acronyms.
Appendix 4 presents the Corporation’s comments on our report.

We note that, in conjunction with other organizational changes made to enhance the
FDIC’s ability to carry out its new and enhanced responsibilities under the Financial
Reform Act, DSC became the Division of Risk Management Supervision effective
February 13, 2011. As a result of the timing of our review and draft report issuance, we
refer to DSC throughout the executive summary and the body of this report.



Background
ShoreBank was a state-chartered, non-member bank headquartered in Chicago, Illinois.
The institution was established in 1939 as a national bank. In 1973, the Illinois
Neighborhood Development Corporation (which later became know as the ShoreBank
Corporation (SBC)), acquired control of the bank with the goal of profitably investing in
community development activities. A key focus for the new owners was rebuilding the
local community that had for a decade been increasingly torn by crime and poverty. The

1
 A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.


                                                      2
bank converted to a state charter in 1978 and subsequently expanded its operations into
Michigan and Ohio.

ShoreBank’s lending strategy focused on providing financing for affordable housing and
economic development activities in underserved and economically-disadvantaged areas.
The institution’s customers included small businesses, not-for-profit organizations,
churches, and individuals in low- to moderate-income areas, including Chicago’s South
Side. The institution’s lending strategy supported the overall business goal of SBC and
its subsidiaries to provide credit for the following activities:

      •   Community Development--minority-owned businesses, minority individuals, and
          faith-based and nonprofit organizations benefiting lower-income communities.

      •   Conservation--businesses developing efficient energy use and alternative energy
          sources for the protection, increased capacity, and revitalization of land and water.

      •   International Activities--financial institutions around the world establishing
          successful loan programs for individuals and small businesses that were often
          overlooked by mainstream financial institutions in their markets.

ShoreBank operated 12 branches in the Chicago, Illinois area, one branch in Cleveland,
Ohio, and one branch in Detroit, Michigan. The institution was wholly owned by its
holding company, SBC, located in Chicago. Shareholders of SBC consisted of financial
institutions, foundations, insurance companies, faith-based institutions, trusts, and
individuals. SBC also controlled one other insured institution, as well as a number of for-
profit and not-for-profit subsidiaries. ShoreBank and SBC’s Boards of Directors and
officers were comprised of community organizers and former bank regulators, three of
whom are former outside members of the FDIC Board of Directors.2 Table 1 summarizes
selected financial information for ShoreBank.

Table 1: Financial Condition of ShoreBank
     Financial Measure      Jun 2010        Dec 2009       Dec 2008       Dec 2007       Dec 2006
          ($000s)
    Total Assets              2,166,431      2,246,737      2,420,425      2,205,770      1,989,977
    Total Loans               1,324,403      1,396,228      1,529,008      1,354,681      1,268,736
    Multi-Family                339,063        361,930        380,185        351,255        315,091
    Residential Loans
    Total Deposits            1,547,403      1,603,248      1,540,156      1,327,302      1,309,114
    Non-Core Liabilities      1,416,662      1,264,281      1,651,456      1,128,869      1,292,535
    Net Income (Loss)          (39,554)      (105,306)         (8,451)        11,158         11,119
    Examination Data        01/04/2010     11/10/2008      10/29/2007     10/23/2006     09/26/2005
    Adversely Classified        224.3%          93.1%           42.1%          31.2%          25.9%
    Items Coverage Ratio
Source: Uniform Bank Performance Reports (UBPR), Reports of Condition and Income (Call Reports), and
examination reports for ShoreBank.

2
 One former Board Member was a ShoreBank and SBC Director. A second former Board Member was an
SBC Director. A third former Board Member was an SBC officer.


                                                 3
Community Development Financial Institutions

ShoreBank was certified by the Treasury’s Community Development Financial
Institution (CDFI) Fund and was the largest CDFI in the United States. Congress
established the CDFI Fund in 1994 to expand the capacity of financial institutions to
provide credit, capital, and financial services to underserved populations and
communities in the United States. A certified CDFI is a specialized financial institution
that works in market niches that are underserved by traditional financial institutions.
Typically, CDFIs provide a unique range of financial products and services in
economically-distressed target markets, such as mortgage financing for low-income and
first-time homebuyers and not-for-profit developers; flexible underwriting and risk
capital for community facilities; and technical assistance, commercial loans, and
investments to small start-up or expanding businesses in low-income areas.

CDFIs include regulated institutions such as community development banks and credit
unions, and non-regulated institutions such as loan and venture capital funds. There were
approximately 60 commercial banks certified as CDFIs as of August 2010. Table 2
summarizes selected financial information for CDFIs and for ShoreBank.

Table 2: Selected Financial Measures of CDFI Banks and ShoreBank
       Financial Measure                CDFI Group Averages                 ShoreBank
                                       Jun 2010     Jun 2009           Jun 2010   Jun 2009
Total Assets ($000s)                    244,992          225,056       2,166,431   2,655,932
Range of Total Assets                 13 million to    11 million to
                                       2.1 billion      2.1 billion
Net Loans & Leases to Assets             64.9%            67.8%         57.0%       55.6%
Non-Current Loans & Leases to             5.6%             4.3%         24.6%       12.6%
Gross Loans
Tier 1 Leverage Capital Ratio             9.1%                10.4%      0.2%        5.0%
Total Risk-Based Capital Ratio           14.5%                15.0%     0.7%        10.4%
Net Non-Core Funding                     33.2%                33.7%     66.7%       60.0%
Dependence Ratio
Source: OIG analysis of UBPRs for CDFI banks and ShoreBank.

ShoreBank’s Economically Challenged Markets

For Community Reinvestment Act (CRA) purposes, ShoreBank designated three
assessment areas within which the bank focused its lending efforts. These areas included
Cook County, Illinois; the City of Detroit in Wayne County, Michigan; and Cuyahoga
County, Ohio. In particular, ShoreBank’s lending was most significantly concentrated
within Cook County, which included the city of Chicago. Based on the FDIC’s October
2006 CRA Performance Evaluation for ShoreBank, from January 2004 through June
2006, 92 percent of both the number and dollar volume of home mortgage and small
business loans were extended inside the bank’s Illinois assessment area. During the same




                                                 4
period, ShoreBank originated 80 percent of its publicly-reportable mortgage loans3 and
64 percent of its small business loans in low- and moderate-income areas.

ShoreBank’s primary assessment area was particularly impacted by the economic
decline. The U.S. Census Bureau’s 2008 American Community Survey reported that the
unemployment rate within a four community area in the south side of Chicago was
23.2 percent, significantly higher than the national average. Figures 1 and 2 present
information about unemployment rates and mortgage delinquencies for each of the areas
within which ShoreBank operated.

Figure 1: National and Local Unemployment Rates
                          18.0%

                          16.0%

                          14.0%
      Unemployment Rate




                          12.0%

                          10.0%

                          8.0%
                                                                                                                United States
                          6.0%
                                                                                                                Cook County, IL
                          4.0%                                                                                  Wayne County, MI
                          2.0%                                                                                  Cuyahoga County, OH

                          0.0%
                                        4




                                                    5




                                                                6




                                                                            7




                                                                                        8




                                                                                                    9




                                                                                                               10
                                     00




                                                 00




                                                             00




                                                                         00




                                                                                     00




                                                                                                 00




                                                                                                             20
                                  -2




                                              -2




                                                          -2




                                                                      -2




                                                                                  -2




                                                                                              -2




                                                                                                           n-
                               ec




                                               c




                                                           c




                                                                       c




                                                                                   c




                                                                                               c
                                            De




                                                        De




                                                                    De




                                                                                De




                                                                                            De




                                                                                                        Ju
                              D




                                                                    Reporting Period

    Source: OIG analysis of Bureau of Labor Statistics (Haver Analytics) data – not seasonally adjusted.

As shown, unemployment in all three counties was slightly higher to significantly higher
than the national average for most periods. In addition, significant increases in both the
local and national unemployment rates were evident throughout 2008 and 2009. Wayne
County experienced a dramatic rise in unemployment and a double-digit unemployment
rate that was 74 percent higher than the national average, as of December 2009.




3
 The Home Mortgage Disclosure Act, enacted by Congress in 1975 and implemented by the Federal
Reserve Board's Regulation C, requires lending institutions to report public loan data.


                                                                                  5
Figure 2: National and State Mortgage Delinquencies
                                  14.0%

                                  12.0%
   Total Mortgage Delinquencies



                                  10.0%

                                  8.0%

                                  6.0%
                                                                                                                            United States
                                  4.0%                                                                                      Illinois
                                                                                                                            Michigan
                                  2.0%
                                                                                                                            Ohio

                                  0.0%
                                                4




                                                            5




                                                                        6




                                                                                    7




                                                                                                8




                                                                                                            9




                                                                                                                       10
                                             00




                                                         00




                                                                     00




                                                                                 00




                                                                                             00




                                                                                                         00




                                                                                                                     20
                                          -2




                                                      -2




                                                                  -2




                                                                              -2




                                                                                          -2




                                                                                                      -2




                                                                                                                   n-
                                         c




                                                       c




                                                                 ec




                                                                               c




                                                                                           c




                                                                                                       c
                                      De




                                                    De




                                                                            De




                                                                                        De




                                                                                                    De




                                                                                                                Ju
                                                                D




                                                                            Reporting Period

Source: OIG analysis of data obtained from the Mortgage Bankers Association of America (Haver Analytics)
– not seasonally adjusted.

Figure 2 illustrates that mortgage loan delinquency rates within ShoreBank’s market
areas generally followed national trends, with historically higher delinquency levels
experienced in Michigan, and to a certain extent Ohio.



Causes of Failure and Material Loss
ShoreBank failed due to insolvency brought on by the Board and management not
implementing adequate risk management practices. ShoreBank provided banking
opportunities to underserved and low-income areas but did not sufficiently mitigate risks
inherent in its business strategy. In particular, management (1) did not effectively
manage the risks associated with its concentrations in Commercial Real Estate (CRE) and
Acquisition, Development, and Construction (ADC) loans, (2) employed poor
underwriting and credit administration practices, and (3) supported loan growth and
ongoing operations with non-core funding sources. Further, ShoreBank management was
not responsive to repeated examiner concerns pertaining to these areas, particularly from
2007 until the bank failed.

ShoreBank’s asset concentrations and weak risk management practices made the
institution vulnerable to a sustained economic downturn in the Chicago real estate
market. Deterioration in the bank’s loan portfolio began in 2007 and accelerated
throughout 2008 and 2009. Ultimately, the losses, provisions, and delinquency
associated with the bank’s loan portfolio depleted the institution’s earnings and capital,
and impaired its liquidity position. IDFPR closed ShoreBank because the institution did
not have sufficient capital to continue normal operations. The FDIC also incurred
penalties associated with the early termination of secured borrowings held by ShoreBank
when it failed that increased DIF losses by about $100 million.


                                                                                          6
Board and Management Oversight

The DSC Risk Management Manual of Examination Policies (Examination Manual)
states that the quality of an institution’s management, including its Board and executive
officers, is perhaps the single most important element in the successful operation of an
institution. The Board has overall responsibility and authority for formulating sound
policies and objectives for the institution and for effectively supervising the institution’s
affairs. Executive officers, such as the President and Chief Executive Officer and the
Chief Lending Officer, have primary responsibility for managing the day-to-day
operations and affairs of the bank.

ShoreBank management and the Board undertook a community-focused, but inherently
risky, business strategy that concentrated the bank’s operations and lending in
economically-challenged geographic market areas. The bank provided a range of loan
products to encourage community development and revitalization of low- and moderate-
income neighborhoods. This business focus exposed the bank to a significant level of
operational and credit risk in the event of a deteriorating economy. Accordingly, strong
risk management practices and controls were vital in mitigating the risks inherent in
ShoreBank’s operations. As discussed in greater detail later in this report, examiners
noted that ShoreBank management and the Board:

    •   Made strategic and operational decisions that resulted in significant CRE and
        ADC loan concentrations and funded loan growth with non-core funding sources
        without sufficient risk controls;

    •   Made loans without adequate underwriting and credit administration practices and
        controls and exercised inadequate oversight of the bank’s loan portfolios;

    •   Did not establish adequate procedures or effective risk management monitoring
        systems appropriate for the institution’s size, complexity, and risk profile;4

    •   Violated several laws pertaining to real estate appraisals, the Bank Secrecy Act,
        loans to insiders, and interest rate restrictions and policy statements pertaining to
        Allowance for Loan and Lease Loss (ALLL) methodologies and interest rate risk;
        and

    •   Did not adequately plan for changing or deteriorating business conditions or
        establish contingency plans for emergency funding situations.

Further, ShoreBank’s Board and management did not fully address examiner concerns
and recommendations. As early as the October 2004 FDIC examination, examiners
reported on the bank’s asset concentrations and numerous repeat loan underwriting and

4
  In this regard, while earlier examinations indicated that ShoreBank management monitored and reported
loan concentrations, the joint January 2010 examination report stated that ShoreBank management did not
monitor loan concentrations until 2009.


                                                   7
administration deficiencies. Examiners also expressed concerns over the adequacy of the
bank’s borrower financial analysis, appraisal practices, project monitoring, loan file
documentation, ALLL methodology, and staffing sufficiency. Examiners noted similar
concerns in subsequent examinations. Management committed to correct individual
deficiencies noted in most of the examinations and in some cases did take action to
address them. However, management did not effectuate comprehensive and sustained
improvements in certain key areas.

FDIC and IDFPR examiners also routinely reported on the bank’s significant reliance on
non-core funding to support the bank’s growth and operations. FDIC examiners
recommended that the bank reduce its level of net non-core funding dependence once the
bank’s financial condition began to significantly deteriorate. During the October 2007
examination, FDIC examiners recommended that ShoreBank develop a Contingency
Funding Plan to prepare for potential unplanned liquidity events. Ultimately, ShoreBank
took limited corrective action despite the repeat recommendations and a 2009 formal
enforcement action.

Finally, we noted that ShoreBank also experienced several senior management changes
that could have impaired management continuity and contributed to ShoreBank’s
inadequate response to examiner recommendations. ShoreBank changed Presidents in
August 2006, April 2007, and October 2009.

Composition, Growth, and Performance of the Loan Portfolio

ShoreBank maintained a relatively diverse mix of loans in its portfolio. Major loan
segments included CRE, ADC, commercial and industrial (C&I), and 1-4 family
residential loans. The majority of the loan portfolio pertained to CRE, such as loans for
multi-family residential properties, small businesses and not-for-profit entities; and ADC
loans, including loans for apartment rehabilitation projects. Notably, ShoreBank’s multi-
family residential loans accounted for about 29 percent of the loan portfolio at year-end
2005, placing the institution in the 97th percentile of its peer group for these types of
loans. The Board and management favored multi-family residential loans because they
furthered the bank’s mission of promoting development and affordable housing in
economically disadvantaged communities and were generally profitable before the
downturn in the real estate market.

Between 2005 and 2008, ShoreBank’s loan portfolio increased by about 50 percent.
While each of the bank’s major loan segments experienced growth during this period,
much of the growth pertained to CRE loans to businesses and not-for-profit entities. To a
lesser extent, the bank increased its ADC lending exposure to larger-scale multi-family
development projects, such as condominium construction projects. A number of these
projects came to market in 2007 and 2008, just as the real estate market was
deteriorating. By late 2008, many of these larger loans showed signs of stress and were
headed into delinquency and foreclosure. As the bank’s real estate markets deteriorated,
ShoreBank began to expand its 1-4 family residential loan portfolio in an effort to replace
declining mortgage refinancing opportunities. Figure 3 illustrates the general



                                             8
composition and growth of ShoreBank’s loan portfolio in the years preceding the
institution’s failure.

Figure 3: Composition and Growth of ShoreBank’s Loan Portfolio

                                                                           $1,528
                            $1,600                              $1,355                  $1,397
                                                    $1,269                                          $1,325
                            $1,400                                         $293
                                                                $229                   $310
                            $1,200                 $225                                            $305
   Gross Loans and Leases




                                        $1,015
                                                                           $300
                            $1,000                              $245
                                                                                       $265
          (Millions)




                                       $182        $314                                            $259
                             $800      $201

                             $600                               $642       $687
                                                   $525                                $657        $619
                             $400      $458

                             $200                                          $248
                                       $174        $205         $239                   $165        $142
                               $0
                                     Dec-2005    Dec-2006    Dec-2007    Dec-2008   Dec-2009     Jun-2010
                                                                Period Ended
                                     ADC Loans                             Other CRE Loans
                                     C&I Loans                              1-4 Family Residential Loans
Source: OIG analysis of Reports of Condition and Income (Call Report) for ShoreBank.

ShoreBank’s strategy of financing community development in economically
disadvantaged areas provided social and environmental benefits. However, it also
involved heightened risk factors, such as increased credit, economic, and concentration
risk. As discussed later, ShoreBank’s risk management practices, including its loan
underwriting, credit administration, and risk analysis and recognition practices were not
commensurate with its risk profile. Weaknesses in these areas made ShoreBank
vulnerable to a sustained downturn in the real estate market.

CRE and ADC Loan Concentrations

While ShoreBank had a relatively diverse mix of loans in its portfolio, CRE and ADC
loans accounted for a significant percentage of the bank’s total capital. In December
2006, the FDIC, the Office of the Comptroller of the Currency, and the Board of
Governors of the Federal Reserve System issued guidance, entitled, Concentrations in
Commercial Real Estate Lending, Sound Risk Management Practices (Joint Guidance).
The Joint Guidance states that the federal banking agencies have observed an increasing
trend in the number of institutions with concentrations in CRE loans and noted that rising
CRE concentrations could expose institutions to unanticipated earnings and capital
volatility in the event of adverse changes in the general CRE market.



                                                                   9
Although the Joint Guidance does not establish specific CRE lending limits, it does
define criteria that the agencies use to identify institutions potentially exposed to
significant CRE concentration risk. According to the Joint Guidance, an institution that
has experienced rapid growth in CRE lending, has notable exposure to a specific type of
CRE, or is approaching or exceeds the following supervisory criteria may be identified
for further supervisory analysis of the level and nature of its CRE concentration risk:

              •                  Total CRE loans representing 300 percent or more of total capital where the
                                 outstanding balance of the institution’s CRE loan portfolio has increased by
                                 50 percent or more during the prior 36 months; or

              •                  Total loans for construction, land development, and other land (referred to in this
                                 report as ADC) representing 100 percent or more of total capital.

As of December 31, 2008, ShoreBank’s non-owner-occupied CRE and ADC loans
represented 471 percent and 158 percent, respectively, of the institution’s total capital.
Both of these levels are higher than the criteria defined in the Joint Guidance as possibly
warranting further supervisory analysis. Figure 4 illustrates the trend in ShoreBank’s
CRE loans (including both owner- and non-owner-occupied loans) relative to total capital
as compared to the bank’s peer group average. As reflected in the figure, ShoreBank’s
CRE loan concentration significantly exceeded the bank’s peer group average.

Figure 4: ShoreBank’s CRE Loan Concentrations Compared to Peer Group

                                1600%

                                1400%                                                             1,351%*
                                                    ShoreBank
   CRE Loans to Total Capital




                                1200%
                                                    Peer Group Average

                                1000%

                                800%
                                                                          610%      596%
                                600%
                                            477%         497%
                                400%
                                            360%         390%             405%        420%        386%
                                200%

                                  0%
                                         Dec-2005      Dec-2006          Dec-2007   Dec-2008    Dec-2009
                                                                    Period Ended

Source: OIG analysis of the UBPRs for ShoreBank.
* The increase in the concentration level in 2009 is the result of increasing losses and declining capital
levels, rather than loan growth.




                                                                          10
Loan Portfolio Decline

At the time of the November 2007 joint examination, ShoreBank’s adversely classified
assets totaled $60.6 million, or 42 percent of Tier 1 Capital plus the ALLL. This level of
classifications presented a concern for examiners as it was higher than the bank’s
historical classification level of 20 to 30 percent of Tier 1 Capital plus the ALLL. As a
result, examiners strongly encouraged the bank’s Board and management to review the
loan portfolio to determine whether the institution’s credit standards needed to be
tightened. By the November 2008 joint examination, ShoreBank’s adversely classified
assets had increased to $160.7 million, or 93 percent of Tier 1 Capital plus the ALLL,
posing significant risk to the institution. The majority of classifications were centered in
CRE and ADC loans. By the January 2010 examination, adversely classified assets had
jumped to $370.6 million, or 224 percent of Tier 1 Capital plus the ALLL. In its final
Call Report for the quarter ended June 30, 2010, ShoreBank reported that almost
25 percent of its $1.3 billion loan portfolio was non-performing.

Figure 5 illustrates the loan losses recognized by ShoreBank across major segments of its
loan portfolio from January 2005 through June 2010. Net loan losses during this period
totaled about $106 million and were generally proportional with the size of each loan
type, with the majority of losses attributed to CRE multi-family residential loans. As
discussed in the next section, examiners expressed repeated concerns about the bank’s
weak loan underwriting and credit administration practices. However, as reflected in the
extent of loan losses, the actions taken by management to address those concerns were
not adequate or timely.

Figure 5: ShoreBank’s Loan and Lease Losses (in 000s)
                            $18,076



                                                                    $49,140
                                          17%


                 $16,918
                                    16%
                                                        46%


                                          21%



                        $22,067




                                   1-4 Family Residential Loans
                                   Commercial or Industrial Loans
                                   ADC Loans
                                   Other CRE Loans

Source: OIG analysis of Call Reports for ShoreBank.




                                                   11
Loan Underwriting, Credit Administration, and Risk Analysis and Recognition
Practices

As early as the October 2004 examination, examiners identified weaknesses related to
underwriting, credit administration, and risk analysis. In broad terms, ShoreBank did not
properly identify, measure, monitor, and control risk related to its loan portfolio. As
illustrated in Table 3, in some cases, examiners identified similar areas of concern in
multiple examinations.

Table 3: Areas of Concern Identified Regarding ShoreBank’s Loan Portfolio
                                                                  Examination Dates
               Areas of Concern                        Oct-   Sep-   Oct-   Oct- Nov-            Jan-
                                                       2004   2005* 2006 2007 2008               2010
Appraisal Practices                                     3       3                 3       3       3
Analysis of Borrower’s Financial Strength               3                         3       3       3
Analysis and Documentation of Large
                                                        3                         3               3
Borrower Relationships
Loan Documentation and/or Presentations                 3                3                3       3
Loan Underwriting (including, but not limited
to, collateral dependent, debt service, and/or                           3        3       3
interest-only loans)
Monitoring and Control of Loan
                                                                                  3       3       3
Concentrations
Monitoring and Control of Supervisory Loan-
                                                                         3        3       3       3
to-Value Exceptions
Risk Ratings                                            3                3                3       3
Recognition and Accounting of Troubled Debt
                                                                                          3       3
Restructures and/or Non-Accrual Loans
Allowance for Loan and Lease Losses
                                                        3       3                                 3
(methodology and/or adequacy)
Source: OIG analysis of examination reports for ShoreBank.
* The September 2005 examination was an IDFPR examination; the FDIC did not participate in the
examination process, but the report was reviewed and accepted by the Chicago Regional Office.

DSC noted that the September 2005 IDFPR examination report indicated that ShoreBank
management had generally addressed weaknesses in overall loan administration that had
been reported in the 2004 examination. DSC also noted that examiners at the 2006 joint
examination concluded that risk management policies and practices for the credit
function were generally adequate but raised concerns that were different than those
reported in the 2004 examination.

To further illustrate the concerns expressed by examiners during the period covered by
our review, listed below are examples of specific findings in loan underwriting, credit
administration, and risk analysis and recognition practices and the examination(s) at
which they were reported.




                                                  12
Loan Underwriting. The FDIC and IDFPR examiners found that ShoreBank did not:

•   Ensure that large borrowers and/or guarantors had sufficient financial resources and
    financial strength to support the credit (January 2010).
•   Perform adequate financial analysis of borrowers’ repayment capacity, and little
    evidence existed in the credit files documenting that any analysis had been performed
    (October 2004, November 2008).
•   Obtain or consistently develop an adequate global cash flow analysis, especially on
    large borrowing relationships (January 2010, November 2008, October 2007).
•   Maintain appropriate loan underwriting standards because the bank made loans to
    borrowers so they could make payments on existing loans (November 2008).
•   Structure certain lines of credit with a designated debt repayment period
    (January 2010).
•   Establish an effective appraisal review program and an adequate process for
    monitoring real estate collateral values. In particular examiners cited apparent
    violations of Part 323 – Appraisals, in multiple examinations (January 2010,
    September 2005, October 2004).

Credit Administration. FDIC and IDFPR examiners found that ShoreBank did not:

•   Obtain and/or require updated borrower financial information such as updated rent
    rolls on collateral-dependent multi-family residential loans (January 2010).
•   Ensure receipt of an appraisal before advancing money for condominium conversion
    projects (October 2004).
•   Obtain updated real estate collateral valuations on distressed properties. A vast
    majority of collateral valuations were “desktop” valuations in which the
    documentation was limited to an email to the lending officer stating a value, or
    simply handwritten notes. In many of the desktop valuations, no actual rental
    information, site inspection, market data, comparable sale information, or other
    relevant information was included or obtained (November 2008, January 2010).
•   Appropriately monitor and limit the level of high loan-to-value loans
    (November 2008).
•   Prevent instances of inappropriate behavior by a single loan officer, such as drawing
    on open lines of credit to pay delinquent loans within loan relationships without the
    borrowers’ knowledge (November 2008, January 2010).

Risk Analysis and Recognition Practices. FDIC and IDFPR examiners found that
ShoreBank did not:

•   Consistently risk-rate individual loans within the same borrowing relationship
    (January 2010).
•   Establish adequate loan policies and criteria for risk-rating multi-family residential
    loans. Risk ratings were based solely on the loan’s delinquency status and did not
    consider various risk factors, such as vacancy rates, cash flow performance, extended
    amortization periods, and loan-to-value positions (November 2008, October 2006).



                                            13
•    Establish loan concentration limits or monitor and report on the bank’s concentration
     levels (January 2010).
•    Adequately account for and place loans in nonaccrual status (January 2010).
•    Accurately identify and account for Troubled Debt Restructures.5 In 2009, numerous
     loans were restructured without being identified or accounted for as Troubled Debt
     Restructures in Call Reports, despite rate and/or other concessions provided to
     financially-distressed borrowers (January 2010).
•    Maintain an adequate ALLL position. Among other things, the bank did not identify
     and account for several large loan relationships that were Troubled Debt Restructures,
     adversely classify and identify several significant loan relationships as impaired, or
     accurately calculate certain impairments (January 2010).

Non-Core Funding Dependence

ShoreBank’s management employed a funding structure that was centered on high-cost,
non-core funding to support its operations without implementing appropriate
measurement, monitoring, and reporting systems commensurate with the risk profile and
business activities of the institution. Of particular note, ShoreBank did not have an
adequate Contingency Funding Plan that included provisions for stress testing the bank’s
liquidity position under various adverse scenarios. Table 4 presents information about
ShoreBank’s funding sources.

Table 4: ShoreBank’s Funding Sources
     Period            Core                      Non-Core Funding Sources ($000s)
     Ended           Deposits            Time        Brokered     Repurchase       FHLB
                      ($000s)         Deposits of    Deposits     Agreements     Borrowings
                                      $100,000 or
                                        More*
    Jun-2010         $1,043,458           $503,945           $397,615          $400,250           $193,937
    Dec-2009         $1,353,006           $250,241           $505,448          $400,250           $193,982
    Dec-2008         $1,224,938           $315,218           $675,541          $405,250           $304,082
    Dec-2007         $1,031,016           $296,286           $474,840          $396,050           $321,039
    Dec-2006           $586,395           $722,719           $495,235          $205,750           $312,943
    Dec-2005           $501,896           $623,802           $383,945                $0           $296,899
Source: OIG analysis of UBPRs for ShoreBank.
* According to DSC, ShoreBank’s time deposits of $100,000 or more were not high-cost funds and
ShoreBank’s cost of such funds was lower than peer institutions.

The Examination Manual states that a heavy reliance on potentially volatile liabilities to
fund asset growth is a risky business strategy because the availability and access to these
funds may be limited in the event of deteriorating financial or economic conditions, and
assets may need to be sold at a loss in order to fund deposit withdrawals and other
liquidity needs.


5
  Troubled debt restructuring takes place when a bank grants a concession to a debtor in financial
difficulty. The accounting standards for troubled debt restructurings are set forth in FAS 15, Accounting by
Debtors and Creditors for Troubled Debt Restructurings, as amended by FAS 114. Banks are expected to
follow proper accounting principles when filing their Call Report.


                                                    14
DSC officials advised us that ShoreBank’s higher net non-core funding dependence ratio6
was due, in part, to relationship-based deposits that were originated from socially
responsible individuals and entities. Some of these relationship-based deposits were
brokered deposits. In DSC’s view, these relationship-based deposits were more stable
than traditional brokered deposits because of the depositors’ dedication to ShoreBank’s
mission. In this regard, the National Community Investment Fund (NCIF) reported that
CDFI banks have historically relied on relationship-based brokered deposits originated
from socially responsible individuals and institutional depositors.7 According to the
NCIF, these relationship-based deposits have demonstrated significant stability despite
being classified as brokered deposits. However, the NCIF also reported that CDFI banks
have faced the potential loss of these deposits as CDFIs’ financial conditions deteriorate,
and many CDFI banks have been actively engaged in diversifying their deposit sources.

As discussed later, some of ShoreBank’s relationship-based deposits were high-cost and
interest rate-sensitive. Some of these deposits also had internal restrictions which
precluded the depositors from keeping deposits at institutions that were less than Well
Capitalized. As a result, the volatility and risk associated with the deposits increased as
the bank’s capital levels decreased.

Figure 6 illustrates the extent to which ShoreBank was highly dependent on non-core
funding from December 2005 until its failure. Also of note, ShoreBank’s net non-core
funding dependence ratio was in the 88th to 99th percentile for its peer group – designated
as commercial banks with assets between $1 billion and $3 billion. Further, as detailed in
the Background section of this report, ShoreBank maintained a higher net non-core
funding dependence position than the CDFI group average.




6
  The net non-core funding dependence ratio is a measure of the degree to which an institution relies on
non-core funding to support longer-term assets (e.g., loans that mature in more than 1 year). An elevated
ratio reflects heavy reliance on non-core funding sources that may not be available in times of financial
stress or adverse changes in market conditions.
7
  National Community Investment Fund, The CDFI Banking Sector: 2009 Annual Report on Financial and
Social Performance. The NCIF is a not-for-profit, private equity trust that invests in banks, thrifts, and
credit unions that generate both financial and social returns.



                                                    15
Figure 6: ShoreBank’s Net Non-Core Funding Dependence Compared to Peer

                                          80
                                                          66%                    70%                    67%
                                          70
                                               63%
 Net Non-Core Funding Dependence Ratios



                                                                                             56%
                                          60
                                                                      47%*
                                          50
                                                                                 35%
                                          40
                                                                     30%
                                               26%        27%                                27%
                                          30
                                                                                                        23%
                                          20
                                                                                 ShoreBank
                                          10
                                                                                 Peer Group Average
                                          0
                                               Dec-2005   Dec-2006   Dec-2007    Dec-2008    Dec-2009   Jun-2010
                                                                         Period Ended
Source: OIG analysis of UBPRs for ShoreBank.
* The decline in ShoreBank’s December 2007 net non-core funding dependence ratio position was
attributed to a systemic reporting weakness related to the Federal Financial Institutions Examination
Council’s (FFIEC) Call Report data collection and UBPR ratio computations, rather than changes in the
bank’s financial funding position. Based on our review and assumptions, the bank’s ratio should have been
computed to be approximately 67 percent. According to FDIC examiners, the variance in the ratio would not
have affected their overall assessment of the bank’s non-core funding dependence.

Reliance on Brokered Deposits

From December 2005 to December 2008, brokered deposits represented 34 to 44 percent
of the bank’s total deposit base. During this same time period, the bank’s brokered
deposits grew 76 percent or $292 million. ShoreBank also paid rates higher than the peer
group average on its time deposits of less than $100,000, which increased the bank’s
potential funding risk.

The November 2008 joint examination report indicated that ShoreBank’s existing funds
management practices were inadequate and insufficient to support the bank’s operations,
and the bank’s deposit volatility was excessive. Examiners reported that ShoreBank had
primarily supported the bank’s growth and expansion initiatives through the use of costly
brokered deposits, public funds, and certificates of deposit (CDs). Examiners also
questioned whether management would be able to obtain a sufficient volume of funds on
reasonable terms to meet the bank’s future liquidity needs. Finally, the examination
report noted that declining ratings by nationally recognized statistical rating organizations




                                                                                 16
might limit the bank’s ability to utilize Certificate of Deposit Account Registry Service
(CDARS) funding, which was a source of ShoreBank’s relationship-based brokered
deposits.8

Examiners concluded that given the bank’s asset quality deterioration and overall
financial decline, the bank’s extensive use of brokered deposits would likely be curtailed,
the ability to offer high-rate CD products would be limited, large depositors might flee to
safer investments, and there was a strong probability that existing unsecured borrowing
lines would be reduced or restricted. In response, ShoreBank management stated that
they believed brokered deposits were cheaper to attract and maintain compared to core
deposits that are more costly from an administrative view. Bank management also stated
that it would be extremely difficult to raise large sums of core deposits given the
neighborhoods and communities that the bank served.

As discussed in more detail later in this report, following the 2008 examination, the FDIC
did not include a capital maintenance provision within a July 2009 formal enforcement
action that would have restricted the bank’s ability to accept, renew, or roll over brokered
deposits. The enforcement action did include provisions addressing liquidity and reliance
on non-core funding. In addition, the FDIC approved a limited brokered deposit waiver
in December 2009 when ShoreBank was Adequately Capitalized and otherwise restricted
from accepting, renewing, or rolling over such deposits.9 As a result, ShoreBank reduced
its brokered deposits by 41 percent from December 2008 to June 2010. As shown in
Table 4, this decrease was offset somewhat by an increase in Time Deposits of $100,000
or more. Ultimately, the bank was not able to significantly reduce its non-core funding
dependence or reduce its cost of funds prior to failure.

Long-Term Repurchase Agreements

ShoreBank also increased its funding and liquidity risk by selling securities under long-
term repurchase agreements. Under such agreements, an institution sells a security to a
counterparty and agrees to repurchase the security at a mutually-agreed upon date and
price. The agreement provides the institution with an immediate source of liquidity.

The Examination Manual states that the majority of repurchase agreements used by
institutions are short-term in nature, and institutions typically use them as short-term,
relatively low-cost, funding mechanisms. In addition, properly administered repurchase
agreements that are conducted within a comprehensive asset/liability management
program are not generally a regulatory concern. However, repurchase agreements that


8
  CDARS is a brokered deposit-placement service offered by the Promontory Interfinancial Network, LLC.
The program is designed to allow FDIC-insured institutions to accept deposits of more than $250,000 and
provide full deposit insurance coverage by spreading the funds among as many separate FDIC-insured
institutions as necessary so that no institution holds more than $250,000 for each depositor. Acceptance
and continued program participation is based, in part, on the bank’s ratings and PCA capital level. One
program offered by the CDARS is titled CDARS for Socially Responsible Investors that allows large
investors to place funds at CDFIs.
9
  The brokered deposit waiver was limited to CDARS relationship-based brokered deposits.


                                                   17
are not adequately controlled may expose an institution to a risk of loss, and the FDIC
will regard such agreements as an unsuitable investment practice.

ShoreBank began to significantly utilize repurchase agreements as a funding source in
2006 and 2007. From December 2006 to June 2010, these funds represented a high-cost
funding source. The January 2010 joint examination noted that ShoreBank used
repurchase agreements to fund growth and that the majority of the agreements had 5 to 7
years remaining before maturity. As of December 2009, ShoreBank’s repurchase
agreements accounted for 18.1 percent of the bank’s liabilities and ShoreBank was
paying more for this funding source than its peers. According to ShoreBank’s June 2008
Alternative Funds Management Policy, bank management considered this funding source
as low risk and set a permissible funding range of 5 to 20 percent of total assets.

These repurchase agreements also included financial penalties in the event of some form
of default. Although ShoreBank did not incur early termination costs, ShoreBank’s
failure constituted a default and the FDIC, as receiver of ShoreBank, incurred early
termination penalties and transaction unwinding fees of $77 million, which represented
13.5 percent of the loss to the DIF, as of December 2010.10 Similarly, the FDIC also
incurred $24 million in fees due to the early termination of FHLB advances that were
outstanding when the bank failed.

Contingency Funding Plan

ShoreBank did not establish an adequate Contingency Funding Plan. Examiners first
recommended that the bank establish a Contingency Funding Plan for any unplanned
stress or liquidity events during the October 2007 joint examination. Examiners again
reported that ShoreBank had not established an effective Contingency Funding Plan in
the November 2008 joint examination report and emphasized that this was a repeated
concern from the prior examination. Examiners recommended and included provisions in
the July 2009 enforcement action that management immediately develop a Contingency
Funding Plan that contemplated a significantly reduced reliance upon the bank’s non-core
funding sources. The bank’s plan was, at a minimum, supposed to:

     •   Identify alternate funding sources and establish general guidelines for their use.
     •   Identify the types of stress events that may be faced (e.g., deterioration in asset
         quality, becoming less than Well Capitalized, funding unplanned asset growth,
         negative publicity, etc...).


10
   According to the FDIC’s Division of Resolutions and Receiverships, the appointment of a receiver was
an event of default under the terms of the Master Repurchase Agreements that ShoreBank executed with its
counterparties. The FDIC, as receiver, steps into the shoes of ShoreBank at closing. When unwinding the
term repurchase agreements, the FDIC would be subject to the costs incurred as a result of the early
termination of those agreements. The FDIC, as receiver, does not retain long-term repurchase agreements.
Under existing law, even if the FDIC wanted to retain the long-term repurchase agreements, after the next
business day, the counterparties have the right to seize and liquidate the collateral, retain amounts due as a
result of the early termination, and return any excess to the receiver.



                                                     18
   •   Define responsibilities and decision-making authority so that all personnel would
       understand their role during a problem-funding situation.
   •   Detail how management would monitor for liquidity events, typically through
       stress testing of various scenarios in a pro forma cash flow format.
   •   Assess the potential for triggering restrictions of the bank’s access to brokered
       and high cost deposits and the resultant effect on the bank's liquidity structure.
   •   Identify and assess the adequacy of the contingent funding sources, including the
       conditions and limitations to their use, as well as the circumstances where the
       institution might employ such facilities.
   •   Identify the potential assets that may be sold to increase liquidity, including
       potential purchasers or participants and any formal or informal agreements in
       place to facilitate such a sale.

In response, ShoreBank’s president stated, in part, that the bank’s standby liquidity
sources (Fed Fund lines, FHLB loans, and wholesale CDs) remained stable but were
being treated as less reliable sources. During the 2010 joint examination, examiners
noted that ShoreBank’s management had made some improvements to the Contingency
Funding Plan but concluded that the plan was inadequate and did not fully address prior
recommendations.


The FDIC’s Supervision of ShoreBank

The FDIC, in conjunction with the IDFPR, provided ongoing supervisory oversight of
ShoreBank through risk management examinations, a visitation, and off-site monitoring.
Through its supervisory efforts, the FDIC identified key risks and deficiencies in
ShoreBank’s risk management practices and operations and brought these concerns to the
attention of the institution’s Board and management through discussions,
correspondence, and examination reports. Key recurring risks included weak risk
management practices pertaining to asset concentrations, loan underwriting and credit
administration, and a historically high reliance on non-core funding. However, the FDIC
considered the key risks to be adequately mitigated prior to 2007.

ShoreBank began experiencing increasingly higher levels of loan delinquencies and
losses in 2007, due, in part, to the declining economy. The FDIC and IDFPR
downgraded the Asset Quality rating because of adversely classified items and rising
delinquencies. Following the 2008 examination, the FDIC and IDFPR further
downgraded all of the component ratings and composite rating and imposed a formal
enforcement action. In retrospect, earlier and greater emphasis on the bank’s risk
profile—including the bank’s vulnerability to an economic downturn, the repeat nature of
certain key risk management weaknesses, and the bank’s dependence on non-core
funding sources—may have been called for in determining the bank’s Management and
Liquidity ratings and deciding whether an informal action was warranted. Taking a more
aggressive supervisory approach earlier could have influenced ShoreBank’s Board and
management to constrain excessive risk and limit expansion into higher-risk areas, and



                                           19
imposed a more structured means to ensure the Board and management affirmatively
responded to examiner concerns at a critical time.

The FDIC has taken a number of steps to enhance its supervision program based on the
lessons learned from financial institution failures during the financial crisis. Of note, in
March 2010, the FDIC completed a training initiative for its entire supervisory workforce
that emphasizes the need to assess a bank’s risk profile using forward-looking
supervision. The training addressed the need for examiners to consider management
practices as well as current financial performance or trends in assigning ratings, as
allowable under existing examination guidance. The FDIC has also issued supervisory
guidance addressing risks associated with CRE and ADC lending and funds management
practices. The early use of informal enforcement actions to pursue correction of weak
risk management practices is consistent with forward-looking supervision and has been
addressed in internal guidance issued to examiners.

Supervisory History

Between 2004 and 2010, the FDIC and IDFPR conducted six examinations and one
visitation of ShoreBank. Historically, ShoreBank was considered a well-performing
institution. Table 5 summarizes key supervisory information pertaining to these
activities.

Table 5: ShoreBank’s Examination History
 Examination/Visitation             On-Site              Supervisory
       Start Date                 Supervisory              Ratings             Supervisory Action
    (Issuance Date)                  Effort                (UFIRS)
January 4, 2010                Joint Examination       555555/5            The bank was closed on
(June 25, 2010)                                                            August 20, 2010.
February 19, 2010                                      555555/5            Interim rating change.
(February 24, 2010)                                                        Consent order amended on
                                                                           March 22, 2010.
April 20, 2009                 Visitation              No rating change    Notified ShoreBank it was
(June 24, 2009)                                                            in a troubled condition and
                                                                           of related requirements.
November 10, 2008              Joint Examination       444444/4            Consent order issued on
(April 17, 2009)                                                           July 14, 2009.
October 29, 2007               Joint Examination       232222/2            Asset Quality rating
(January 23, 2008)                                                         downgraded.*
October 23, 2006               FDIC                    222222/2            None.
(December 4, 2006)             Examination
September 26, 2005             IDFPR                   222222/2            None.
(December 1, 2005)             Examination
October 18, 2004               FDIC                    222222/2            None.
(December 12, 2004)            Examination
Source: Examination reports, problem bank memoranda, and formal enforcement actions for ShoreBank.
* The FDIC and IDFPR also required ShoreBank to submit a quarterly Classified Asset Progress Report.




                                                  20
Offsite Reviews

In addition to onsite examinations, the FDIC performed offsite monitoring of ShoreBank.
The FDIC’s offsite review program is designed to identify emerging supervisory
concerns and potential problems so that supervisory strategies, such as examination
schedules, can be adjusted appropriately. The FDIC electronically generates an Offsite
Review List (ORL) each quarter and performs offsite reviews for each 1- and 2- rated
bank that appears on the list. The ORL includes institutions that are indentified by:

    •     The Statistical CAMELS Offsite Rating (SCOR) system as having a 35 percent or
          higher probability of downgrade to a composite “3” rating or worse, or
    •     The Growth Monitoring System (GMS) as having a growth percentile of 98 or 99
          in comparison to peer institutions.

Table 6 identifies the risk flags that were identified by the FDIC’s automated offsite
review programs that prompted a corresponding review of ShoreBank from September
2005 until the institution failed. Appendix 2 includes a description of each offsite review
model listed below.

Table 6: ShoreBank’s Offsite Review History
Offsite         Sep-      Jun-       Sep-      Dec-      Jun-   Sep-   Dec-   Mar-   Jun-
Model           2005      2006       2006      2006      2008   2008   2008   2009   2009
SCOR                                                        9    9      9      9
SCOR-LAG                                                    9    9      9      9
Real Estate        9         9         9          9         9    9      9      9
Stress Test
(REST)
GMS                9         9         9          9
Consistent         9         9         9          9         9    9      9      9
Grower
Multiflag                                         9
Other                                                                                9
Source: OIG analysis of Offsite Review reports for ShoreBank.

As shown, from September 2005 to June 2009, the FDIC’s offsite review program
identified ShoreBank for offsite review for nine periods. The offsite review
documentation explained why the bank was appearing on the ORL and briefly discussed
completed or planned examination activity. The FDIC did not substantially change its
supervisory strategy as a result of the offsite reviews and relied on the annual
examination schedule.

Enforcement Actions

Following the 2008 examination, the FDIC and IDFPR jointly issued a formal
enforcement action, which was subsequently amended in 2010 to include a capital
maintenance provision.




                                                   21
July 14, 2009 Consent Order: The order became effective on July 24, 2009 and
contained 13 provisions that addressed such areas as:

   •   retaining acceptable management;
   •   developing a capital plan;
   •   improving credit quality and loan administration;
   •   developing a written plan to manage concentrations;
   •   developing a written plan to address liquidity, dependency on non-core funding,
       and rate sensitivity;
   •   developing a contingency funding plan;
   •   restricting dividends;
   •   developing a written profit plan and budget;
   •   establishing a board committee to ensure compliance with the consent order; and
   •   providing progress reports.

At this time, ShoreBank’s capital component was rated a “4” due, in part, to the elevated
risk profile of the bank—stemming from severe asset quality problems and significant
concentration risk. Financial assistance from shareholders or other external sources was
considered a necessity. However, the consent order did not include a capital maintenance
provision. Including a capital provision would have decreased ShoreBank’s capital
designation from Well Capitalized to Adequately Capitalized and imposed certain
operating restrictions. Most notably, ShoreBank would have been prohibited from
accepting brokered and higher-rate deposits without a waiver from the FDIC.

According to the November 2008 joint examination report, FDIC examiners held a
meeting with ShoreBank senior management in January 2009 to discuss the examination
findings. The bank’s president expressed significant concern with the FDIC’s proposed
ratings, the volume of classified assets, and overall deficiencies identified, given the fact
that the bank’s business plan had gone unchanged for many years. ShoreBank’s
president also stated that the proposed rating would cause the bank to lose critical
deposits that were dependent upon the bank maintaining a Well Capitalized position and
not being subject to formal regulatory action. The president asserted that the bank would
“surely fail” if the FDIC and IDFPR assigned a composite “4” rating.

ShoreBank representatives also requested a meeting with the FDIC Chairman and senior
FDIC headquarters officials, and the meeting was held on May 8, 2009. The Chairman
and senior officials from DSC and the Legal Division attended the meeting. ShoreBank’s
purpose for the meeting was to present its plans to address deficiencies identified in the
November 2008 examination and its efforts to raise capital. ShoreBank representatives
also discussed the harshness of the proposed consent order and requested that the FDIC
instead impose a non-public informal enforcement action. The FDIC did not acquiesce
and, as discussed above, continued to pursue and ultimately issued a formal enforcement
action.

An April 9, 2010 DSC Supervisory History timeline and May 12, 2009 status comments
within DSC’s Formal and Informal Action Tracking System (FIAT) noted, in part, that


                                             22
the enforcement action did not include specific capital levels, but rather a capital plan, as
a result of the May 8, 2009 meeting. However, interviews with officials who attended the
meeting indicated that the capital maintenance provision was not discussed.

Based on our interviews with several FDIC regional and IDFPR officials, the FDIC had
detailed and supportable information indicating that ShoreBank would be able to raise
additional capital. Those interviews also indicated that Chicago regional, IDFPR, and
DSC headquarters officials discussed and debated the merits of a capital maintenance
provision and the officials’ collective judgment was that the provision was not needed in
the order, considering ShoreBank’s existing level of capital and prospects for raising
additional capital. Chicago regional officials were also concerned that a public order
with such a capital maintenance provision would have impaired ShoreBank’s ability to
access and retain deposits and that certain large ShoreBank depositors might have been
required to withdraw their deposits in the event that ShoreBank became less than Well
Capitalized.

We reviewed other consent orders for banks that were Well Capitalized from the Chicago
Region to determine how common it is for orders to include capital maintenance
provisions. Based on a review of consent orders (issued and terminated) by the Chicago
Regional Office for 2009, we found that 1 out of 26 orders (3.8 percent, excluding
ShoreBank) did not contain a targeted capital provision. The one order was issued to a
bank with a Tier 1 Leverage Capital ratio of 13.1 percent and a Total Risk-Based Capital
ratio of 19.5 percent.

While it may be uncommon for FDIC regional offices to issue a formal enforcement
action without a capital maintenance provision, it is within their discretion to do so and
allowed by FDIC policy. Further, the consent order required ShoreBank to develop a
capital plan acceptable to the Regional Director and DSC sufficient for the kind and
quality of assets held and risks undertaken. The Regional Director told us that he advised
ShoreBank management of DSC's expectations regarding the bank's capital levels and
referred management to other consent orders for examples of acceptable capital levels.
The Regional Director and the IDFPR Commissioner also conducted weekly calls with
ShoreBank to monitor the bank's compliance with the consent order, including progress
in meeting the regulators’ expectations regarding capital.

March 22, 2010 Amended Consent Order: On March 10, 2010, ShoreBank agreed to
consent to an amendment to the order. The amendment added an additional provision to
the outstanding July 2009 consent order that required the bank to have and maintain a
minimum Tier 1 Leverage Capital Ratio of 9 percent and a minimum Total Risk-Based
Capital Ratio of 12 percent. In addition, the bank was required to notify shareholders of
the amended order. FDIC regional staff told us the FDIC and IDFPR amended the order
to include specific capital levels as ShoreBank’s condition continued to deteriorate.




                                             23
Supervisory Response to ShoreBank’s Board and Management Oversight

According to DSC’s Examination Manual, a bank’s Board and management are assessed
on their capability to identify, measure, monitor, and control the risks of an institution’s
activities and to ensure a financial institution’s safe, sound, and efficient operation in
compliance with applicable laws and regulations. Generally, directors must provide clear
guidance regarding acceptable risk exposure levels and ensure that appropriate policies,
procedures, and practices have been established. Senior management is responsible for
developing and implementing policies, procedures, and practices that translate the
Board’s goals, objectives, and risk limits into prudent operating standards.

As discussed in the Background section, three former outside members of the FDIC
Board of Directors served as either board members or officials of ShoreBank and/or SBC.
Chicago regional officials told us that the former Board Members’ involvement in the
two organizations did not affect the FDIC’s supervision of ShoreBank and nothing came
to our attention during our review to suggest that the FDIC supervised ShoreBank
differently than other institutions.

During examinations conducted between 2004 and 2007, the FDIC and IDFPR assigned
ShoreBank a management component rating of “2” and reported that ShoreBank’s Board
and management were adequate and provided sufficient oversight of the bank.

   •   The October 2004 FDIC examination found that while management’s overall
       policies and practices were acceptable, the bank had several areas in need of
       management’s attention. The examination report noted that many of the areas
       were identified in the prior FDIC examination, and while management had taken
       corrective action, further action was needed. In addition, examiners reported that
       while management had historically proven to be generally conservative in its
       lending practices and losses had been manageable, numerous deficiencies were
       again noted regarding overall loan administration, particularly in the multi-family
       residential real estate portfolio.

   •   The September 2005 IDFPR examination reported that the institution’s low risk
       profile was driven by conservative management strategies, which were
       satisfactorily administered by the Board and senior management, and conservative
       underwriting.

   •   The October 2006 FDIC examination reported that the Board and senior
       management continued to provide sufficient oversight of the bank. Although a
       number of loan administration deficiencies were noted, the report stated that
       management was able to maintain a very favorable loan loss history and adverse
       classifications remained manageable. Further, the bank’s funds management
       practices remained satisfactory and the bank’s risk management and alternative
       funding policies were adequate. The examiners also reported that ShoreBank was
       in compliance with all Board-approved ratios, and internal reports provided
       management with the tools to properly identify, measure, monitor, and control the


                                             24
       bank’s liquidity position.

   •   The October 2007 joint examination reported that the Board and senior
       management satisfactorily oversaw the bank’s operations, management operated
       the complex community bank in an acceptable manner, and the Board was kept
       abreast of the bank’s activities through a comprehensive Board package and open
       communication with the operating management team. However, the examination
       report noted that further efforts were needed to improve ShoreBank’s risk
       management processes related to economic conditions and asset concentrations,
       credit policies and procedures, and asset/liability management policies and
       practices. As discussed later, ShoreBank was not responsive to repeated examiner
       concerns in these key areas.

   •   In contrast, the November 2008 joint examination found that ShoreBank’s Board
       and senior management were less than acceptable due to the bank’s growing
       amount of asset quality problems and unacceptable management practices.
       Examiners noted that management was accountable for the decisions that led to
       the bank’s financial deterioration, particularly the bank’s credit concentrations
       that exposed ShoreBank to increased risks. In response to the July 2009 consent
       order, ShoreBank requested and received the FDIC’s approval to replace its
       existing president and Chairman of the Board.

   •   The January 2010 joint examination report indicated that ShoreBank’s oversight
       of the multi-family portfolio had improved, but that prior oversight was
       inadequate and that the bank’s overall condition had continued to deteriorate. In
       addition, examiners concluded that the bank’s risk management processes were
       not adequate. Examiners continued to report significant concerns with loan
       underwriting and administration and high levels of liquidity risk given the bank’s
       weak condition and significant reliance on wholesale funding. The examiners
       also concluded that poor risk selection, weak underwriting, and inadequate loan
       monitoring, coupled with the economic downturn were the major causes of the
       deterioration in the loan portfolio and the bank’s overall financial condition.

In hindsight, management’s inability to effectively address areas of regulatory concern
over several examination cycles and to respond to changing economic conditions may
have warranted increased regulatory attention and action before 2008. A bank’s
Management component rating should reflect the Board’s and management’s ability as it
applies to all aspects of its banking operations. Management is rated, in part, based upon
an assessment of:

   •   The ability of the Board and management to plan for, and respond to, risks that
       may arise from changing business conditions or the initiation of new activities or
       products.
   •   The adequacy of, and conformance with, appropriate internal policies and controls
       addressing the operations and risks of significant activities.



                                            25
   •   The accuracy, timeliness, and effectiveness of management information and risk
       monitoring systems appropriate for the institution’s size, complexity, and risk
       profile.
   •   Compliance with laws and regulations.
   •   Responsiveness to recommendations from auditors and supervisory authorities.
   •   The overall performance of the institution and its risk profile.

With these factors in mind, a more critical assessment of management during the 2007
examination may have been prudent given that ShoreBank’s management had not
adequately:

   •   planned for the potential risks associated with possible changing business
       conditions;
   •   established policies and procedures related to concentrations, loan underwriting
       and administration, and non-core funding dependence;
   •   established effective risk management monitoring systems appropriate for the
       institution’s size, complexity, and risk profile; and,
   •   addressed areas of supervisory concern over a period of several examination
       cycles.

Supervisory Response to ShoreBank’s Risk Management of the Loan Portfolio

According to the Examination Manual, asset quality is one of the most critical areas in
determining the overall condition of a bank. The primary factor affecting overall asset
quality is the quality of the loan portfolio and the credit administration program. Loans
are usually the largest of the asset items and can also carry the greatest amount of
potential risk to the bank’s capital account. The manual also states that management’s
ability to identify, measure, monitor, and control credit risk is reflected in the bank’s
asset quality rating. Asset quality is primarily rated upon an assessment of:

   •   The adequacy of underwriting standards, soundness of credit administration
       practices, and appropriateness of risk identification practices.
   •   The diversification and quality of the loan and investment portfolios.
   •   The existence of asset concentrations.
   •   The adequacy of loan and investment policies, procedures, and practices.
   •   The volume and nature of credit documentation exceptions.

As discussed in the following sections, examiners routinely recognized ShoreBank’s
CRE concentrations and repeatedly noted weaknesses in ShoreBank’s loan underwriting
and administration practices. However, examiners’ level of concern was mitigated due to
the bank’s low level of loan losses until the 2007 examination.




                                            26
Supervisory Response to ShoreBank’s Loan Concentrations

FDIC and IDFPR examiners reported on ShoreBank’s loan concentrations in each
examination report:

   •   The October 2004 and October 2006 FDIC examinations listed the bank’s
       concentration in multi-family residential loans based on the bank’s loans to
       investors (reported as multi-family residential loans) and to developers (reported
       as ADC loans). Examiners concluded that the risk associated with these
       concentrations was mitigated by the bank’s historical experience of low loan
       losses.

   •   The October 2007 joint examination listed the bank’s concentration in multi-
       family residential loans and recommended that bank management and the Board
       review the 2006 CRE Concentration guidance for compliance.

   •   The November 2008 joint examination noted ShoreBank’s increasing
       classifications caused by deteriorating economic conditions and expressed
       significant concern with the bank’s CRE, ADC, and multi-family residential loan
       concentrations. Examiners recommended that the Board and senior management
       examine the current economic environment and determine whether changes to the
       bank’s overall growth strategy were needed. The FDIC and IDFPR also included
       a concentrations of credit provision in the July 2009 consent order requiring the
       bank to formulate, adopt, and implement a written plan to manage concentrations
       of credit to include (1) written procedures for the ongoing measurement and
       monitoring of the concentrations of credit and (2) a limit on concentrations
       commensurate with the bank’s capital position, safe and sound banking practices,
       and the overall risk profile of the bank.

   •   The January 2010 joint examination found that the bank had revised its credit
       policy and established various concentration limits. However, we observed that
       ShoreBank’s revised policies did not address the bank’s concentrations in CRE
       loans or ADC loans. Although the bank set a concentration limit for multi-family
       residential loans, the established limit of 300 percent of capital was higher than
       the bank’s historical holdings for multi-family residential loans. For example,
       from December 2005 to September 2009, the bank’s concentration of multi-
       family residential loans ranged from 214 to 276 percent of capital. According to
       DSC, this concern was mitigated by the bank no longer originating new ADC
       loans.

Supervisory Response to ShoreBank’s Loan Underwriting, Credit Administration, and
Risk Analysis and Recognition

As early as October 2004, examiners identified weaknesses related to underwriting and
credit administration. In addition, as shown earlier in Table 3 in the Cause of Failure and
Material Loss section of this report, some areas of concern were repeated in multiple



                                            27
examinations. The significance of these repeat areas of concern was more pronounced
because some concerns were centered in the bank’s largest portfolio segment, multi-
family residential loans in low- to moderate-income areas, and involved collateral
dependent loans with appraisal/collateral-valuation issues. Further, deficiencies
identified within the bank’s internal risk-rating process (for example, risk-rating multi-
family loans based solely on delinquency, and not accounting for other risk factors such
as vacancy rates, cash flows, extended amortization periods, and high loan-to-values)
compounded the effect of these weaknesses.

FDIC and IDFPR examiners reported the following with respect to loan underwriting and
credit administration.

   •   The October 2004 FDIC examination found that ShoreBank’s risk management
       policies and practices for the credit function were not adequate and that numerous
       deficiencies remained in the administration of the bank’s multi-family loan
       portfolio. The examination report indicated that several of these criticisms were
       noted at prior examinations.

   •   The October 2006 FDIC and October 2007 joint examinations continued to
       identify credit underwriting and administration concerns, particularly within the
       bank’s multi-family residential loan portfolio. Based on these concerns,
       increasing levels of delinquencies and problem assets, and a deteriorating
       economic environment, examiners reduced the bank’s Asset Quality component
       rating from a “2” to a “3” during the October 2007 examination.

   •   The November 2008 joint examination report expressed a higher level of concern
       over ShoreBank’s loan underwriting and administration practices. In particular,
       examiners determined that asset quality was poor as the level of adversely
       classified assets had sharply increased and loan underwriting and administration
       deficiencies continued to exist. As a result, examiners downgraded the bank’s
       Asset Quality component rating to “4” and included a provision in the July 2009
       consent order requiring improvement in loan administration policies and
       practices.

   •   The January 2010 joint examination report acknowledged that ShoreBank had
       revised the bank’s policies but noted repeated loan underwriting and
       administration concerns. Examiners reported that poor risk selection, weak
       underwriting, and inadequate monitoring, coupled with the economic downturn,
       were the major causes of the deterioration in the loan portfolio.

As discussed above, the FDIC and IDFPR downgraded ShoreBank’s Asset Quality
component rating to a “3” in October 2007. As noted earlier in this report, additional
emphasis on ShoreBank’s asset concentration levels and the repeat nature of the
underwriting and credit administration weaknesses may have been warranted in assessing
management and determining the need for an informal supervisory action. An informal
supervisory action may have prompted the Board and management to be more responsive


                                            28
to examiners’ concerns before the economy and ShoreBank’s asset quality began to
significantly deteriorate.

The FDIC has taken a number of steps to enhance its supervision program based on the
lessons learned from financial institution failures during the financial crisis. Of note, in
March 2010, the FDIC completed a training initiative for its entire supervisory workforce
that emphasizes the need to assess a bank’s risk profile using forward-looking
supervision. The training addressed the need for examiners to consider management
practices as well as current financial performance or trends in assigning ratings, as
allowable under existing examination guidance. The FDIC has also issued supervisory
guidance addressing risks associated with CRE and ADC lending. Finally, the early use
of informal enforcement actions to pursue correction of weak risk management practices
is consistent with forward-looking supervision, and the FDIC has addressed this area in
internal guidance issued to examiners.

Supervisory Response to ShoreBank’s Non-Core Funding Dependence

DSC’s Examination Manual states that in evaluating the adequacy of a financial
institution’s liquidity position, consideration should be given to the current level and
prospective sources of liquidity compared to funding needs, as well as to the adequacy of
funds management practices relative to the institution’s size, complexity, and risk profile.
Funds management practices should ensure that liquidity is not maintained at a high cost,
or through undue reliance on funding sources that may not be available in times of
financial stress or adverse changes in market conditions. Liquidity is rated based upon, in
part, an assessment of:

   •   The level of diversification of funding sources, both on- and off-balance sheet.
   •   The degree of reliance on short-term, volatile sources of funds, including
       borrowings and brokered deposits, to fund longer-term assets.
   •   The trend and stability of deposits.
   •   The capability of management to properly identify, measure, monitor, and control
       the institution’s liquidity position, including the effectiveness of funds
       management strategies, liquidity policies, management information systems, and
       contingency funding plans.

Since the October 2004 FDIC examination, examiners reported that ShoreBank had
funded asset growth through non-core funding sources and recognized that the bank’s
reliance on non-core funding sources was necessitated due to the historically low levels
of core deposits that were available in ShoreBank’s lending areas. Examiners also
routinely concluded that ShoreBank’s asset/liability funds management policies and
practices were adequate, and that the bank’s funding practices were consistent with
internal guidelines. Notably, however, the October 2007 joint examination reported that
ShoreBank’s non-core funding dependency could be an issue if the bank experienced
significant financial deterioration, and examiners recommended that the bank develop a
Contingency Funding Plan.



                                             29
The November 2008 joint examination found that liquidity levels, contingency planning,
and existing funds management practices were inadequate and insufficient to support
bank operations. Accordingly, examiners downgraded the bank’s Liquidity component
rating from a “2” to a “4” and included an asset/liability management plan provision in
the July 2009 consent order. This provision required ShoreBank to develop a plan to
address the bank’s dependency on non-core funding sources, to include establishing a
desirable range for the bank’s net non-core funding dependence ratio, reducing the level
of brokered deposits, and developing a formal Contingency Funding Plan.

The January 2010 joint examination found that ShoreBank’s liquidity levels were
critically deficient. Examiners noted that ShoreBank had established the following policy
guidelines:

    •   Net non-core funding dependence ratio of 40 percent or less.
    •   Short-term net non-core funding dependence ratio of 25 percent or less.
    •   Brokered deposits to total deposits of 35 percent or less.

However, examiners found that ShoreBank was not in compliance with two of the above
policy guidelines. In addition, the examiners noted that ShoreBank’s brokered deposit
policy parameter was still too high, brokered deposit guidelines were inadequate, Internet
deposit policy guidelines were not addressed, and limits on FHLB advances or other
borrowings had not been established. Examiners also reported that ShoreBank’s
Contingency Funding Plan was inadequate.

In hindsight, although examiners routinely recognized the bank’s historical and highly
dependent use of non-core funding, the FDIC could have expressed a greater level of
concern and taken earlier supervisory action to further mitigate the potential level of risk
present within ShoreBank. Specifically, assigning a “3” rating for the Liquidity
component in the October 2007 examination may have been prudent considering:

        •   ShoreBank’s level of dependence on non-core funding and high-cost deposits;
        •   the absence of a Contingency Funding Plan; and
        •   the lack of adequate risk identification, measurement, monitoring, and control
            over the bank’s non-core liabilities.

An institution assigned a Liquidity component rating of “3” indicates that liquidity levels
or funds management practices are in need of improvement. Institutions rated “3” in this
area may lack ready access to funds on reasonable terms or may evidence significant
weaknesses in funds management practices. According to FDIC senior Chicago regional
officials, the bank’s non-core funding dependence was viewed to be mitigated, to a
certain degree, by the nature of the bank’s customer deposit base, which included
philanthropists and other socially responsible individuals and institutions that believed in
ShoreBank’s mission. However, as noted earlier in this report, some of these funding
sources became potentially more volatile when ShoreBank’s financial position
deteriorated due to conditions associated with the deposits remaining in the bank. In
addition, examiners stated that ShoreBank was able to effectively manage its non-core


                                             30
funding dependence and to remain liquid, until the bank experienced financial
difficulties, at which time examiners expressed increased concern.

As part of its efforts to enhance the supervision program, the FDIC issued guidance
related to liquidity management and the use of potentially volatile or special funding
sources by financial institutions that are in a weakened condition in 2008 and 2009,
respectively. Specifically, in August 2008, the FDIC issued guidance, FIL-84-2008
entitled Liquidity Risk Management, to highlight the importance of contingency funding
plans to address relevant stress events and the requirements governing the acceptance,
renewal, or rolling over of brokered deposits. FIL-13-2009, The Use of Volatile or
Special Funding Sources by Financial Institutions That Are in a Weakened Condition,
states that institutions rated “3”, “4”, or “5” that engage in material growth strategies,
especially those that are funded with volatile liabilities or temporarily expanded FDIC
insurance or liability guarantees, pose a significant risk to the DIF and will be subject to
heightened supervisory review and enforcement.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against institutions that are not adequately capitalized. The FDIC is required to
closely monitor the institution’s compliance with its capital restoration plan, mandatory
restrictions defined under section 38(e), and any discretionary safeguards imposed to
determine if the purposes of PCA are being achieved. Based on the supervisory actions
taken with respect to ShoreBank, we determined that the FDIC generally implemented
applicable PCA provisions of section 38 properly.

The FDIC issued timely notices related to the institution’s capital category, reviewed and
monitored the institution’s Call Reports and UBPRs, obtained and reviewed progress
reports on enforcement actions, conducted onsite reviews and monitoring of PCA
restrictions, and conducted periodic discussions with the institution’s management
regarding compliance with the restrictions imposed under each PCA capital category.
However, the FDIC’s notification to ShoreBank regarding the adequacy of its capital
restoration plan could have been enhanced.

ShoreBank was considered Well Capitalized for PCA purposes until October 30, 2009,
when the bank filed its September 30, 2009 Call Reports and its Tier 1 Leverage Capital
ratio fell below 5 percent, placing ShoreBank within the Adequately Capitalized capital
category. Subsequently, based on the results of the January 2010 examination, the bank’s
December 2009 capital ratios fell within the Critically Undercapitalized capital category
based on the examiners’ identification of additional losses and determination that
additional ALLL provisions were needed. Table 7 illustrates ShoreBank’s capital levels
relative to the PCA thresholds for Well Capitalized institutions, and the significant
decline in ShoreBank’s capital levels from December 2008 to June 2010.




                                             31
Table 7: ShoreBank’s Capital Levels Relative to PCA Thresholds for Well
         Capitalized Institutions
                                      Well             As of                                              As of
                                                                      As of             As of
       Capital Ratio               Capitalized         Dec-                                               Jun-
                                                                     Sep-2009          Dec-2009
                                   Threshold           2008                                               2010
Tier 1 Leverage Capital            5% or more          5.88%           4.62%             1.82%            0.18%
Tier 1 Risk-Based Capital          6% or more          9.45%           8.31%             3.30%            0.33%
Total Risk-Based Capital          10% or more         10.73%           9.59%             4.61%            0.66%
Source: OIG analysis of UBPRs for ShoreBank, as well as section 38 of the FDI Act and 57 Federal
Register 44866-1.

Key Actions in Implementing PCA

The FDIC’s key actions in implementing PCA and monitoring ShoreBank’s adherence to
PCA included the following:

•    November 25, 2009. Based on ShoreBank’s September 2009 Call Reports, the FDIC
     issued a PCA notification letter informing the bank that it was Adequately Capitalized
     based on PCA capital standards. As a result of this capital designation, the bank was
     subject to various restrictions on deposit rates and the acceptance, renewal, or roll-
     over of brokered deposits without an FDIC waiver.

•    December 16, 2009. Based on ShoreBank’s November 2009 brokered deposit
     waiver application, the FDIC provided a limited 90-day waiver for the bank to renew
     or replace certain brokered deposits totaling $58 million. The request sought to
     alleviate the bank’s liquidity needs, and, in approving the request, the FDIC
     confirmed that the identified deposits were in essence core deposits, and that the
     depositors had an established long-term relationship with the bank.

•    January 12, 2010. The FDIC denied the bank’s December 2009 request for a waiver
     to the interest rate requirements of Section 337.6 – Brokered Deposits. In particular,
     the bank was denied a waiver to pay rates in excess of the national rate cap.

•    June 25, 2010. Based on the January 2010 examination, issued in June 2010, the
     FDIC cited the bank for apparent violations of Part 337.6 - Brokered Deposits of the
     FDIC Rules and Regulations, which states, in part, that an adequately capitalized
     institution may not accept, renew, or roll over deposits that exceed the national rate
     paid on deposits of comparable size and maturity by 75 basis points. From October 1,
     2009 to January 12, 2010, the bank opened 377 new online savings accounts totaling
     $66.3 million that paid rates in excess of the interest rate limit.

•    February 23, 2010. Based on ShoreBank’s amended December 2009 Call Reports,
     submitted on February 22, 2010, the FDIC provided the bank with a second PCA
     notification letter that informed ShoreBank that it was Critically Undercapitalized11

11
  According to Part 325 Subpart B – Prompt Corrective Action, an insured depository institution is deemed
to be Critically Undercapitalized if it has a ratio of tangible equity to total assets that is equal to or less than
2.0 percent.


                                                        32
    for PCA purposes, the lowest PCA capital designation. As a result of this capital
    designation, the bank was subject to further restrictions, including, but not limited to,
    asset growth, acquisitions, new activities, new branches, payment of dividends or
    making any other capital distribution, and management fees or senior executive
    compensation. In addition, ShoreBank was required to submit a capital restoration
    plan. Bank management was also notified that the FDIC would be required to place
    ShoreBank into receivership on May 24, 2010, unless it was determined that a
    different action would better carry out the purposes of section 38.

•   March 10, 2010. As discussed elsewhere in this report, the FDIC amended the
    bank’s July 2009 consent order to include a capital maintenance provision.

•   May 18, 2010. The FDIC extended the period required to place the bank into
    receivership beyond the 90-day requirement for an additional 90 days, until
    August 22, 2010. The FDIC granted the extension to provide sufficient time for the
    Treasury to consider the bank’s request for CDCI funds, and for the recapitalization
    of the bank to be consummated.

Capital Restoration Plans

ShoreBank was required to submit a capital plan based on the July 2009 consent order,
and a capital restoration plan based on the February 2010 PCA notification letter. In
response to the July 2009 consent order, ShoreBank submitted a capital plan in
September 2009; however, due to continuing deterioration of the bank’s condition,
ShoreBank submitted an amended capital plan in December 2009. ShoreBank’s
December 2009 capital plan consisted of a strategy to both raise new capital and shrink
the balance sheet of the bank. In response, the FDIC reviewed the capital plan during its
January 2010 examination, and approximately 6 months later, notified the bank within
the January 2010 ROE and accompanying transmittal letter, dated June 25, 2010, that
further efforts were needed to develop and implement a successful capital plan.

In response to the February 2010 PCA notification letter, ShoreBank submitted a capital
restoration plan in March 2010. According to FDIC senior regional management, the
FDIC did not provide formal notification to ShoreBank that commented on the adequacy
or inadequacy of the bank’s March 2010 capital restoration plan. According to
Part 325.104(c), the FDIC is required to provide written notice within 60 days of
receiving a capital restoration plan as to whether the plan has been approved. Although
FDIC examiners believed the capital restoration plan was adequate, examiners were
continuing to perform analysis and hold discussions with other bank regulators regarding
ShoreBank’s capital requirements for CDCI funding purposes. Accordingly, the FDIC
did not provide written notification to ShoreBank. Given ongoing analysis and
discussions, in our view, the lack of written notification was inconsequential to the
supervision or failure of the bank.




                                             33
Community Development Capital Initiative

In March 2010, ShoreBank applied for almost $72 million in funding through the
Treasury Department’s CDCI program. The CDCI program was part of the Troubled
Asset Relief Program.12 ShoreBank’s CDCI application was contingent on ShoreBank
raising approximately $150 million in private capital. We will be discussing
ShoreBank’s efforts to raise private capital and the banking regulators’ consideration of
CDCI funding in a separate report. Ultimately, several of the banking regulators
concluded that ShoreBank required greater amounts of private capital, and ShoreBank
was not able to obtain approval for CDCI funding or fully enact its proposed capital
restoration plan. The IDFPR closed ShoreBank and named the FDIC as receiver on
August 20, 2010, due to the bank’s insolvency primarily resulting from deteriorating
capital.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
February 25, 2011, the Director, Division of Risk Management Supervision, provided a
written response to the draft report. In the response, the Director reiterated the causes of
ShoreBank’s failure and the supervisory activities described in our report. The response
also noted that the FDIC issued a Financial Institution Letter (FIL) in 2008, entitled
Managing Commercial Real Estate Concentrations in a Challenging Environment, that
reemphasized the importance of robust credit risk-management practices in institutions
with concentrated CRE exposures.




12
     Please see the Glossary for a description of these programs.


                                                       34
                                                                              Appendix 1

                    Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the Deposit Insurance Fund
incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency
reviewing the agency’s supervision of the institution. The Financial Reform Act amends
section 38(k) by increasing the MLR threshold from $25 million to $200 million for
losses that occur for the period January 1, 2010 through December 31, 2011. The
FDI Act requires that the report be completed within 6 months after it becomes apparent
that a material loss has been incurred.

On August 5, 2010, prior to ShoreBank’s failure, the Ranking Member of the House
Financial Services Committee and the Ranking Member of the Subcommittee on
Oversight and Investigations requested that we review private-sector efforts to
recapitalize ShoreBank and the FDIC’s consideration of ShoreBank’s application for
funds under Treasury’s CDCI program. The Ranking Members requested that we
determine whether the Administration or Members of the Congress exerted political
influence over the FDIC associated with efforts to recapitalize ShoreBank.

Our audit objectives were to (1) determine the causes of ShoreBank’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of ShoreBank,
including the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.
In addition, to address the Ranking Members’ concerns we determined (3) the timeline of
events pertaining to the FDIC’s supervision and CDCI consideration for ShoreBank;
(4) the extent and nature of FDIC involvement in the ShoreBank investor recapitalization
effort; (5) whether the FDIC followed its standard process in reviewing ShoreBank’s
CDCI application and whether ShoreBank met CDCI eligibility requirements;
(6) whether the resolution followed selected FDIC policies and regulations related to
marketing the bank, assessing purchaser eligibility, and making a least cost decision;
and (7) whether there was any indication of political or inappropriate influence imposed
on the FDIC in connection with the supervision, investor recapitalization effort, CDCI
consideration, or resolution of ShoreBank.

This report addresses the first two objectives, that is, our analysis of ShoreBank’s failure
and the FDIC’s supervision of the institution as required by section 38 of the FDI Act.
We will issue a separate report addressing the remaining objectives involving ShoreBank
recapitalization efforts and the FDIC’s marketing and resolution of ShoreBank.

We conducted this performance audit from August 2010 to February 2011 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We



                                             35
                                                                             Appendix 1

                      Objectives, Scope, and Methodology

believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of ShoreBank’s operations from 2004 until
its failure on August 20, 2010. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve these objectives, we performed the following procedures and techniques:

     •   Analyzed examination reports prepared by the FDIC and the IDFPR examiners
         from 2004 to 2010.

     •   Reviewed the following:

           •   Bank data and correspondence maintained at DSC’s Chicago Regional
               Office.

           •   Reports prepared by DRR and DSC relating to the bank’s closure.

           •   Institution data in Call Reports and UBPRs.

           •   Audit reports prepared by the bank’s external auditor.

           •   Pertinent DSC policies and procedures and various banking laws and
               regulations.

     •   Interviewed the following FDIC officials:

           •   DSC management in Washington, D.C. and the Chicago Regional Office.

           •   FDIC examiners from the Chicago Regional Office and Downers Grove,
               Illinois Field Office, who participated in examinations or reviews of
               examinations of ShoreBank.

     •   Interviewed IDFPR examiners and managers to discuss the historical perspective
         of the institution, its examinations, and other activities regarding the state's
         supervision of the bank.




                                              36
                                                                              Appendix 1

                   Objectives, Scope, and Methodology

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand ShoreBank’s
management controls pertaining to causes of failure and material loss as discussed in the
body of this report. In performing the MLR we relied on Call Report data provided by
ShoreBank from March 2005 to June 2010. Examiners informed us that they verified the
accuracy of basic data on key Call Report schedules, but not all Call Report data from
2005 through 2007. This practice did not affect our audit conclusions.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at http://www.fdicig.gov. In addition, the OIG issued an audit report entitled,
Follow-up Audit of FDIC Supervision Program Enhancements (Report No. MLR-11-
010), in December 2010. The objectives of the audit were to (1) determine the actions
that the FDIC has taken to enhance its supervision program since May 2009, including


                                            37
                                                                           Appendix 1

                   Objectives, Scope, and Methodology

those specifically in response to the May 2009 memorandum, and (2) identify trends and
issues that have emerged from subsequent MLRs.

Further, with respect to more in-depth coverage of specific issues, in May 2010, the OIG
initiated an evaluation of the role and federal regulators’ use of the Prompt Regulatory
Action provisions of the FDI Act (section 38, PCA and section 39, Standards for Safety
and Soundness) in the banking crisis.




                                           38
                                                                                 Appendix 2

                               Glossary of Terms

Term                                               Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development,     funding for acquiring and developing land for future construction, and that
and              provide interim financing for residential or commercial structures.
Construction
(ADC) Loans
Adversely        Assets subject to criticism and/or comment in an examination report.
Classified       Adversely classified assets are allocated on the basis of risk (lowest to
Assets           highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for    The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease   book value of loans and leases to the amount that is expected to be
Losses (ALLL)    collected. It is established in recognition that some loans in the institution’s
                 overall loan and lease portfolio will not be repaid. Boards of directors are
                 responsible for ensuring that their institutions have controls in place to
                 consistently determine the allowance in accordance with the institutions’
                 stated policies and procedures, generally accepted accounting principles,
                 and supervisory guidance.

Call Report      Reports of Condition and Income, often referred to as Call Reports, include
                 basic financial data for insured commercial banks in the form of a balance
                 sheet, an income statement, and supporting schedules. According to the
                 Federal Financial Institutions Examination Council’s (FFIEC) instructions
                 for preparing Call Reports, national banks, state member banks, and insured
                 nonmember banks are required to submit a Call Report to the FFIEC’s
                 Central Data Repository (an Internet-based system used for data collection)
                 as of the close of business on the last day of each calendar quarter.

Cease and        A C&D is a formal enforcement action issued by a financial institution
Desist Order     regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
(C&D)            stop an unsafe or unsound practice or a violation of laws and regulations. A
                 C&D may be terminated when the bank’s condition has significantly
                 improved and the action is no longer needed or the bank has materially
                 complied with its terms.

Commercial       CRE loans are land development and construction loans (including 1-to-4
Real Estate      family residential and commercial construction loans) and other land loans.
(CRE) Loans      CRE loans also include loans secured by multifamily property and nonfarm
                 nonresidential property, where the primary source of repayment is derived
                 from rental income associated with the property or the proceeds of the sale,
                 refinancing, or permanent financing of the property.

Commercial &     Non-real estate secured or unsecured loans made to business enterprises.
Industrial       Examples include, but are not limited to, loans for the purpose of financing
(C&I) Loans      capital expenditures and current operations (such as working capital or
                 accounts receivable loans), and loans guaranteed by the Small Business
                 Administration.



                                            39
                                                                                  Appendix 2

                                Glossary of Terms

Term                                               Definition
Community         A Troubled Asset Relief Program designed to provide capital assistance to
Development       viable community development financial institutions. The program is
Capital           administered by the Treasury Department’s Office of Financial Stability.
Initiative
Concentration     A concentration is a significantly large volume of economically related
                  assets that an institution has advanced or committed to a certain industry,
                  person, entity, or affiliated group. These assets may, in the aggregate,
                  present a substantial risk to the safety and soundness of the institution.

Consistent        Consistent Grower is a cumulative growth score for an institution using up
Grower            to 20 quarters of GMS scores. Individual quarter GMS scores are weighted
                  based on the percentile rank for each period. This weighting process results
                  in a single GMS score that is representative of multiple periods.

Contingency       A written plan that defines strategies for addressing liquidity shortfalls in
Funding (or       emergency situations. Such plans delineate policies to manage a range of
Liquidity) Plan   stress environments, establish clear lines of responsibility, and articulate
                  clear implementation and escalation procedures. Contingency funding
                  plans should be regularly tested and updated to ensure that they are
                  operationally sound. DSC uses the term contingency funding plan and
                  contingency liquidity plan interchangeably.

FDIC’s            The FDIC’s supervision program promotes the safety and soundness of
Supervision       FDIC-supervised institutions, protects consumers’ rights, and promotes
Program           community investment initiatives by FDIC-supervised institutions. The
                  FDIC’s Division of Supervision and Consumer Protection, now the
                  Division of Risk Management Supervision, (1) performs examinations of
                  FDIC-supervised institutions to assess their overall financial condition,
                  management policies and practices (including internal control systems), and
                  compliance with applicable laws and regulations and (2) issues related
                  guidance to institutions and examiners.

Federal Home      FHLBs provide long-and short-term advances (loans) to their members.
Loan Bank         Advances are primarily collateralized by residential mortgage loans, and
(FHLB)            government and agency securities. Community financial institutions may
                  pledge small business, small farm, and small agri-business loans as
                  collateral for advances. Advances are priced at a small spread over
                  comparable U.S. Department of the Treasury obligations.




                                             40
                                                                                Appendix 2

                             Glossary of Terms

Term                                             Definition
Global Cash     A global cash flow analysis is a comprehensive evaluation of borrower
Flow Analysis   capacity to perform on a loan. During underwriting, proper global cash flow
                must thoroughly analyze projected cash flow and guarantor support.
                Beyond the individual loan, global cash flow must consider all other
                relevant factors, including: guarantor’s related debt at other financial
                institutions, future economic conditions, as well as obtaining current and
                complete operating statements of all related entities. In addition, global cash
                flow analysis should be routinely conducted as a part of credit
                administration. The extent and frequency of global cash flow analysis
                should be commensurate to the amount of risk associated with the particular
                loan.

Growth          GMS is an offsite rating tool that identifies institutions experiencing rapid
Monitoring      growth or having a funding structure highly dependent on non-core funding
System (GMS)    sources.

Loan-to-Value   A ratio for a single loan and property calculated by dividing the total loan
                amount at origination by the market value of the property securing the
                credit plus any readily marketable collateral or other acceptable collateral.

Material Loss   As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                Dodd-Frank Wall Street Reform and Consumer Protection Act, for the
                period beginning January 1, 2010 and ending December 31, 2011, a
                material loss is defined as any estimated loss in excess of $200 million.

Memorandum      A Memorandum of Understanding is an informal agreement between the
of              institution and the FDIC, which is signed by both parties. The State
Understanding   Authority may also be party to the agreement. MOUs are designed to
(MOU)           address and correct identified weaknesses in an institution’s condition.

Multi-family    Real estate secured loans that include, but are not limited to, properties with
Residential     five or more residential units in the structure (such as, apartment buildings,
loans           cooperative buildings, and mix-use buildings where the primary use is
                residential with five or more housing units). Loans for multifamily
                residential property construction, apartment rehabilitation, and
                condominium conversions are excluded.

MultiFlag       MultiFlag is a model that combines the FDIC’s various off-site review risk
                measures, and based on relaxed thresholds/criteria identifies banks that
                would not normally be identified by a single measure. Institutions with
                multiple exceptions–exceeding the criteria of four or more off-site review
                models—are considered high risk.




                                           41
                                                                                 Appendix 2

                              Glossary of Terms

Term                                              Definition
Nonaccrual       The status of an asset, often a loan, which is not earning the contractual rate
Status           of interest in the loan agreement, due to financial difficulties of the
                 borrower. Typically, interest accruals have been suspended because full
                 collection of principal is in doubt, or interest payments have not been made
                 for a sustained period of time. Loans with principal and interest unpaid for
                 at least 90 days are generally considered to be in a nonaccrual status.

Offsite Review   The FDIC’s Offsite Review Program is designed to identify emerging
Program          supervisory concerns and potential problems so that supervisory strategies
                 can be adjusted appropriately. Offsite reviews are performed quarterly for
                 each bank that appears on the Offsite Review List. Regional management is
                 responsible for implementing procedures to ensure that Offsite Review
                 findings are factored into examination schedules and other supervisory
                 activities.

Peer Group       Institutions are assigned to 1 of 15 peer groups based on asset size, number
                 of branches, and whether the institution is located in a metropolitan or non-
                 metropolitan area.

Problem Bank     A problem bank memorandum documents the FDIC’s concerns with an
Memorandum       institution and the corrective action in place or to be implemented and is
                 also used to effect interim rating changes on the FDIC’s systems.

Prompt           The purpose of PCA is to resolve the problems of insured depository
Corrective       institutions at the least possible long-term cost to the Deposit Insurance
Action (PCA)     Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of
                 Federal Regulations, section 325.101, et. seq., implements section 38,
                 Prompt Corrective Action, of the FDI Act, 12 United States Code section
                 1831(o), by establishing a framework for determining capital adequacy and
                 taking supervisory actions against depository institutions that are in an
                 unsafe or unsound condition. The following terms are used to describe
                 capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                 (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                 Undercapitalized.

                 A PCA Directive is a formal enforcement action seeking corrective action
                 or compliance with the PCA statute with respect to an institution that falls
                 within any of the three categories of undercapitalized institutions.

Real Estate      REST attempts to simulate what would happen to banks today if they
Stress Test      encountered a real estate crisis similar to that of New England in the early
(REST)           1990s. REST uses statistical techniques to forecast an institution’s
                 condition over a 3- to 5-year horizon and provides a single rating from 1 to
                 5 in descending order of performance quality.




                                            42
                                                                                  Appendix 2

                               Glossary of Terms

Term                                               Definition
Risk-Based       A “supplemental” capital standard under Part 325 of the FDIC Rules and
Capital          Regulations. Under the risk-based framework, a bank’s qualifying total
                 capital base consists of two types of capital elements, “core capital” (Tier 1)
                 and “supplementary capital” (Tier 2).

Risk-Based       Appendix A to Part 325—Statement of Policy on Risk-Based Capital—
Capital Rules    defines the FDIC’s risk-based capital rules. Appendix A states an
                 institution’s balance sheet assets and credit equivalent amounts of off-
                 balance sheet items are assigned to broad risk categories according to the
                 obligor or, if relevant, the guarantor or the nature of the collateral. The
                 aggregate dollar amount in each category is then multiplied by the risk
                 weight assigned to that category. The resulting weighted values from each
                 of the four risk categories are added together and this sum is the risk-
                 weighted assets total that, as adjusted, comprises the denominator of the
                 risk-based capital ratio. The institution’s qualifying total capital base is the
                 numerator of the ratio.

Risk-Weighted    Balance sheet assets and equivalent amounts of off-balance sheet items that
Assets           are placed in four risk categories, multiplied by a specific risk weight for
                 that category, and then added together to become the denominator of the
                 risk-based capital ratio.

SCOR LAG         SCOR LAG is a derivation of SCOR and uses the SCOR ratios for the
                 composite rating. The difference between the two models is that SCOR
                 LAG uses adjusted asset quality ratios by comparing them against a prior
                 period. This model helps to normalize the bank’s performance ratios that
                 may be understated by strong asset growth.

Statistical      SCOR is a financial model that uses statistical techniques, offsite data, and
CAMELS           historical examination results to measure the likelihood that an institution
Offsite Rating   will receive a CAMELS downgrade at the next examination.
(SCOR) System
Substandard      One of three types of classifications used by examiners to describe
                 adversely classified assets. The term is generally used to describe an asset
                 that is inadequately protected by the current sound worth and paying
                 capacity of the obligor or of the collateral pledged, if any. Substandard
                 assets have a well-defined weakness or weaknesses that jeopardize the
                 liquidation of the debt. Substandard assets are characterized by the distinct
                 possibility that the institution will sustain some loss if the deficiencies are
                 not corrected.




                                            43
                                                                                Appendix 2

                              Glossary of Terms

Term                                               Definition
Tier 1 (Core)    Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital          325.2(v), as
                 The sum of:
                 • Common stockholder’s equity (common stock and related surplus,
                 undivided profits, disclosed capital reserves, foreign currency translation
                 adjustments, less net unrealized losses on available-for-sale securities with
                 readily determinable market values);
                 • Non-cumulative perpetual preferred stock; and
                 • Minority interest in consolidated subsidiaries;
                 Minus:
                 • Certain intangible assets;
                 • Identified losses;
                 • Investments in securities subsidiaries subject to section 337.4; and
                 • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Tier 2           Tier 2 capital is defined in Appendix A to Part 325 of the FDIC Rules and
(Supplemental)   Regulations, and is generally the sum of:
Capital          • Allowances for loan and lease losses, up to a maximum of 1.25 percent of
                 risk-weighted assets;
                 • Cumulative perpetual preferred stock, long-term preferred stock and
                 related surplus;
                 • Perpetual preferred stock (dividend is reset periodically);
                 • Hybrid capital instruments; and
                 • Term subordinated debt and intermediate-term preferred stock.
Troubled Asset   TARP is a program of the United States Department of the Treasury to
Relief Program   purchase assets and equity from financial institutions to strengthen the
(TARP)           financial sector.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)    The report is produced by the Federal Financial Institutions Examination
                 Council for the use of banking supervisors, bankers, and the general public
                 and is produced quarterly from Call Report data submitted by banks.

Uniform          Financial institution regulators and examiners use the Uniform Financial
Financial        Institutions Rating System (UFIRS) to evaluate a bank’s performance in six
Institutions     components represented by the CAMELS acronym: Capital adequacy,
Rating System    Asset quality, Management practices, Earnings performance, Liquidity
                 position, and Sensitivity to market risk. Each component, and an overall
(UFIRS)          composite score, is assigned a rating of 1 through 5, with 1 having the least
                 regulatory concern and 5 having the greatest concern.




                                           44
                                                                           Appendix 2

                         Glossary of Terms

Term                                         Definition
Wholesale   Wholesale funding sources include, but are not limited to, Federal funds,
Funding     public funds, Federal Home Loan Bank advances, the Federal Reserve’s
            primary credit program, foreign deposits, brokered deposits, and deposits
            obtained through the Internet or CD listing services. Financial institutions
            may use wholesale funding sources as an alternative to core deposits to
            satisfy funding and liability management needs.




                                      45
                                                                        Appendix 3

                               Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

C&D      Cease and Desist Order

C&I      Commercial and Industrial

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk

CDCI     Community Development Capital Initiative

CDFI     Community Development Financial Institution

CRA      Community Reinvestment Act

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FFIEC    Federal Financial Institutions Examination Council

FHLB     Federal Home Loan Bank

FIAT     Formal and Informal Action Tracking System

FIL      Financial Institution Letter

HMDA     Home Mortgage Disclosure Act

IDFPR    Illinois Department of Financial and Professional Regulation

LLC      Limited Liability Corporation

LTV      Loan-to-Value



                                        46
                                                       Appendix 3

                              Acronyms


MOU     Memorandum of Understanding

NCIF    National Community Investment Fund

OIG     Office of Inspector General

ORL     Offsite Review List

PCA     Prompt Corrective Action

RMS     Risk Management Supervision

ROE     Report of Examination

TARP    Troubled Asset Relief Program

UBPR    Uniform Bank Performance Report

UFIRS   Uniform Financial Institutions Rating System




                                      47
                                                                                        Appendix 4

                                     Corporation Comments




Federal Deposit Insurance Corporation
   550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                       February 25, 2011
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          FDIC Response to the Draft Audit Report Entitled, Material Loss Review of
                  ShoreBank, Chicago, Illinois (Assignment No. 2010-085)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, as amended by the Dodd-Frank Wall
Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s Office of
Inspector General (OIG) conducted a material loss review of ShoreBank, Chicago, Illinois, which
failed on August 20, 2010. This memorandum is the response of the Division of Risk Management
Supervision (RMS) to the OIG’s Draft Report received on February 7, 2011.

ShoreBank failed primarily because the Board and management did not effectively manage the risks
associated with its concentrations in commercial real estate (CRE) and acquisition, development, and
construction (ADC) loans. They did not sufficiently mitigate risks inherent in their business strategy.
They employed poor underwriting and credit administration practices, and supported loan growth and
ongoing operations with non-core funding sources.

From 2004 through 2010, the Illinois Department of Financial and Professional Regulation (IDFPR)
and the FDIC jointly and separately conducted six full-scope examinations, one visitation, and offsite
monitoring activities. Examiners identified key risk management weaknesses and made
recommendations for improvement to the Board and management. In 2007 examiners noted
deterioration in ShoreBank’s loan portfolio and downgraded the asset quality rating. ShoreBank was
required to submit quarterly progress reports on efforts to lessen the risk position and dollar volume
of problem loans. The 2008 examination noted continued deterioration. ShoreBank’s composite
rating was downgraded and a formal enforcement action was issued. The 2010 examination found
that ShoreBank’s Board and management failed to adequately address supervisory recommendations
Ultimately, ShoreBank was unable to raise sufficient capital to remain viable.

In recognition of the threat that institutions with high CRE concentrations, such as ShoreBank, pose,
to the Deposit Insurance Fund, RMS has issued guidance to enhance our supervision. A Financial
Institution Letter (FIL), Managing Commercial Real Estate Concentrations in a Challenging
Environment, was issued that re-emphasized the importance of robust credit risk-management
practices in institutions with concentrated CRE exposures.

Thank you for the opportunity to review and comment on the Report.




                                                     48
